   THE DRUG ENFORCEMENT
ADMINISTRATION’S HANDLING OF
       CASH SEIZURES



       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-06
            January 2007
           THE DRUG ENFORCEMENT ADMINISTRATION’S
                 HANDLING OF CASH SEIZURES

                             EXECUTIVE SUMMARY

        The Drug Enforcement Administration (DEA) enforces the controlled
substances laws and regulations of the United States and investigates
organizations and individuals involved in the growing, manufacture, or
distribution of controlled substances.1 To ensure that criminal organizations
and individuals do not benefit financially from their illegal acts, federal law
provides that profits from drug-related crimes, as well as property used to
facilitate certain crimes, are subject to forfeiture to the government. In
carrying out its mission, the DEA seized about $339 million in cash in fiscal
year (FY) 2005 from organizations and individuals involved in drug-related
criminal activity.

      In addition to the DEA, state and local law enforcement agencies also
seize cash during their drug enforcement operations. These state and local
agencies may transfer seized cash to a federal agency, such as the DEA, for
processing through the federal Asset Forfeiture Program (AFP).2 Transferred
seizures are referred to as “adopted” seizures because the federal agency
adopts the seizures made by state or local agencies.

      The DEA Agents Manual requires that DEA staff promptly convert cash
they directly seize to a cashier’s check and promptly transfer cashier’s
checks, including those adopted from state or local agencies, to the United
States Marshals Service (USMS). The DEA is responsible for safeguarding
the seized cash from the time it is seized until it is transferred to the USMS.
The USMS subsequently manages and disposes of seized and forfeited
assets.

      Generally, when the DEA seizes cash from organizations or individuals
involved in drug-related activities, the agents are supposed to count the
cash, if practical, and seal the cash in an evidence bag or container. The
agents then take the cash to the local DEA office for safekeeping where the
cash is usually stored in the office’s overnight vault or security container
controlled by the office’s evidence custodian. DEA agents later retrieve the
cash from the evidence custodian and take it to a bank for an official count

       1
           A controlled substance is a drug which has been declared by federal or state law to
be illegal for sale or use, but may be dispensed under a physician's prescription.
       2
         The AFP is a federal program for managing seized assets, including cash, used in
crime until those assets are returned to the owner or forfeited to the government.


                                              i
and conversion to a cashier’s check. The agents then take the cashier’s
check back to the DEA office for safekeeping until it is transferred to the
USMS. Variations to this process may occur, such as: (1) the DEA agents
sometimes take the seized cash directly to the bank, (2) some banks
electronically transfer the funds to the USMS instead of issuing the DEA a
cashier’s check, and (3) the DEA receives a cashier’s check instead of cash
from state and local law enforcement agencies for seizures adopted by DEA.

      The purpose of this audit was to evaluate whether the DEA established
and implemented effective controls for safeguarding seized cash. As shown
in the following chart, from October 1, 2003, through November 3, 2005,
the DEA recorded 16,007 cash seizures totaling almost $616 million in its
Division offices.




                                     ii
                  Number and Dollar Value of Cash Seizures
               from October 1, 2003, through November 3, 2005
                                                                          3
                                           (in millions of dollars)

                                            Adopted     DEA Seizures          Total

                       $0       $10    $20       $30          $40   $50         $60      $70    $80   $90
      DEA Division
             Atlanta
                            1,346/$32.36                763/$53.31                    2,109/$85.67
      Los Angeles
                              213/$8.14                1,267/$65.85                   1,480/$73.99
          New York
                             805/$10.65                 881/$57.05                    1,686/$67.70
             Detroit
                              171/$4.97                 618/$42.33                     789/$47.30
           St. Louis
                             302/$22.46                 616/$21.77                     918/$44.24
            Houston
                               94/$8.93                 507/$33.15                     601/$42.08
      New Orleans
                               66/$5.48                 591/$31.67                     657/$37.15
              Miami
                               35/$0.80                 773/$35.57                     808/$36.37
            Chicago
                             988/$10.34                 651/$24.20                    1,639/$34.54
      Washington
                              601/$6.79                 703/$14.33                    1,304/$21.12
              Dallas
                               44/$1.26                 227/$14.49                     271/$15.75
            Newark
                                4/$0.28                 158/$14.12                     162/$14.39
             Boston
                              247/$3.63                 456/$10.73                     703/$14.37
             El Paso
                               64/$1.32                 341/$12.25                     405/$13.56
            Phoenix
                               15/$0.87                 367/$12.13                     382/$13.00
          San Diego
                              137/$1.72                 552/$10.10                     689/$11.82
      Philadelphia
                               23/$1.03                 338/$10.39                     361/$11.42
   Rocky Mountain
                               92/$2.15                  231/$9.19                     323/$11.34
    San Francisco
                              142/$2.99                  213/$4.83                      355/$7.82
             Seattle
                               36/$0.80                  244/$6.35                      280/$7.15
          Caribbean
                               13/$0.70                   72/$4.46                       85/$5.16
            TOTALS      5,438/$127.68             10,569/$488.27                 16,007/$615.95

 Source: Consolidated Asset Tracking System


      3
           This chart presents for each DEA Division office the number and amount of
adopted cash seizures (in red), the number and amount of DEA cash seizures (in blue), and
the number and amount of total cash seizures (numbers only in black). The totals may
differ slightly from the sum of the adopted and DEA amounts due to rounding. All data
shown is for the period October 1, 2003, through November 3, 2005, except for the
Washington Division data which is for the period October 1, 2003, through September 30,
2005.


                                                        iii
      To assess the adequacy of the DEA’s controls for safeguarding seized
cash, we selected a statistical sample of 742 cash seizures valued at
$44,980,718 from 7 DEA Divisions.4 The details of our testing
methodologies are presented in our Objective, Scope, and Methodology
contained in Appendix I. The statistical sampling techniques we used are
presented in Appendix II.

Audit Results

       Our audit found that while the DEA had established internal control
policies for safeguarding seized cash, some of those policies need to be
strengthened. For example, the DEA should: (1) better define situations
when seized cash should be counted immediately by the seizing agent or
officer, (2) define a timeframe for seized cash to be taken to the bank to
ensure that offices minimize the time during which they hold seized cash and
particularly seized cash that the offices do not count, and (3) speed the
transfer of seized cash to the USMS by mandating the use of wire transfers
where possible.

      Even more important, our audit testing at 28 DEA offices found that
the DEA had not adequately implemented many of its existing internal
control policies regarding cash seizures, including maintaining
documentation demonstrating compliance with the policies. The results of
our testing are discussed in the following sections.

Control Tested: According to the DEA Agents Manual, when cash is
discovered, a witnessing agent or task force officer should immediately be
summoned to witness the handling of the cash.

Test Results: As shown in the following chart, DEA documents did not
reflect that a witnessing agent or officer was present in 31 percent of the
seizures tested.




      4
         Our statistical sample was derived from a sample universe of 3,705 seizures
valued at $160,680,618. As previously stated, the overall universe was 16,007 seizures
valued at $616 million. Appendix I includes a detailed discussion of why certain cash
seizures were excluded from our sample universe based on requests from the DEA or based
on the results of our preliminary testing.


                                          iv
                     Presence of a Witnessing Agent or Officer
                           when Cash was Discovered5


     Witness Present
     During Discovery                           69%                   12%      19%


                                          Yes       Could not determine   No

    Source: OIG analysis of DEA records

     The detailed results for each office and Division tested are presented in
Appendix III. Among the 28 DEA offices tested, the compliance rate ranged
from 100 percent in 4 offices to 22 percent in 1 office.

      DEA officials told us that based on their extensive prior experience in
managing investigations they believed a witness was usually present when
the cash was discovered, but that the agents failed to document that fact.
However, without such documentation, we cannot confirm whether or not a
witness was actually present during discovery of the cash in these instances.
Moreover, a failure to document the presence of a witness, if one was
present, violated DEA policies.

Control Tested: According to the DEA Agents Manual, if the amount of
cash seized is such that an immediate count is practical, a count is to be
conducted by the seizing agent and a witnessing agent or officer.

Test Results: As shown in the following chart, in most cases the
documentation we reviewed showed that the DEA agents rarely counted the
cash upon seizure.




       5
          “Yes” means documentation showed that a witnessing agent or officer was
involved. “No” means documentation showed that only one agent or officer was involved.
“Could not determine” means the documentation did not provide sufficient information to
confirm whether a witnessing agent or officer was involved. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 5 percentage points of what they would have been if the entire
population had been tested.


                                                v
                                  Counting Seized Cash6


      Agents Counted
                           16%           15%                       69%
       Seized Cash


                                           Yes        Could not determine   No

   Source: OIG analysis of DEA records


       The detailed results for each office and Division tested are shown in
Appendix IV. The results showed a wide disparity in the implementation of
this control among the 28 DEA offices we tested. The rate at which the
control was implemented ranged from 63 percent in 1 office to 0 percent in
11 offices.

      While DEA’s written policy in the DEA Agents Manual is to count seized
cash when “practical,” many DEA officials we interviewed did not understand
this policy. DEA officials in nine of the offices we tested erroneously told us
they believed it was the DEA’s policy that agents should not count the seized
cash. These officials told us they do not count the cash to avoid any
discrepancies between the agents’ counts and the official bank counts that
could lead to additional paperwork and could subject the agents to an
investigation for possible theft of funds.

       However, the DEA’s practice of not counting seized cash when practical
significantly increases the risk of loss, theft, and claims by persons from
whom the currency was seized.

Control Tested: The DEA Agents Manual requires agents to issue a Form
DEA-12 (DEA-12), Receipt for Cash or Other Items, to the person from
whom the cash was seized showing either the amount seized or that “an
undetermined amount of U.S. currency pending an official count” was




       6
          For the test of whether agents counted the seized cash, “Yes” means
documentation showed that agents counted the cash. “No” means documentation showed
that agents did not count the cash. “Could not determine” means the documentation did
not provide sufficient information to confirm whether the agents counted the cash. Based
on our statistically valid projected point estimates, the percentages reported in this analysis
of the sampled items are within plus or minus 5 percentage points of what they would have
been if the entire population had been tested. This range varies for the statistical results of
each control we tested.


                                                 vi
seized.7 When currency is seized as the result of a seizure warrant, agents
are not required to issue a DEA-12.8 Instead, the officers are required to
either provide a copy of the warrant with a list of the items seized to the
person from whom the items were seized; or leave a copy of the warrant
and list of items seized at the seizure location if the person from whom the
items were seized is not present.

Test Results: As shown in the following chart, the documentation we
reviewed did not indicate that the DEA agents regularly issued a receipt or
warrant to the owner of the seized cash.

                        Agents Provided a Receipt or Warrant
                          to the Owner of the Seized Cash9



            Agents Provided                               1%
              a Receipt or                52%                          47%
                Warrant

                                       Yes       Could not determine    No

           Source: OIG analysis of DEA records


     The detailed results for each office and Division tested are shown in
Appendix V. Among the 28 DEA offices tested, the compliance rate ranged
from 100 percent in 3 offices to 0 percent in 3 offices.




       7
          The DEA-12, Receipt for Cash or Other Items, is a multipurpose form used to
document the following seizure actions: (1) providing a receipt to the owner or person
claiming ownership of property that is seized, (2) documenting the return of property held
less than 5 working days, (3) placing non-drug evidence into temporary custody, and
(4) recording the short-term transfer of non-drug evidence exhibits between agents and
evidence custodians or other law enforcement personnel for production in court.
       8
         A seizure warrant is a written order by the court authorizing the search or seizure
of property.
       9
          “Yes” means documentation showed that agents provided a receipt or warrant to
the owner of the cash. “No” means documentation showed that agents did not provide a
receipt or warrant to the owner of the cash. “Could not determine” means the
documentation did not provide sufficient information to confirm whether the agents
provided a receipt or warrant to the owner of the cash. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 2 percentage points of what they would have been if the entire
population had been tested.


                                                 vii
      DEA officials told us that based on their extensive prior experience in
managing investigations they believed a DEA-12 or warrant was usually
provided to the owner of the seized cash, but that the agents did not
document that action. However, without such documentation we cannot
confirm whether or not a DEA-12 or warrant was provided to the owner.
Moreover, failing to issue a warrant and maintain this required
documentation violated DEA policies.

Controls Tested: According to the DEA Agents Manual, a DEA agent or
Task Force Officer and another witnessing agent should also be present
when the seized cash is secured in a Heat Sealed Evidence Envelope and
when the cash is transported to the local DEA office or the bank for an
official count.10

Test Results: As shown in the following chart, the DEA did not maintain
documentation indicating that a witnessing agent or officer was present, as
required by DEA policy at the various stages of the cash handling process.




       10
          A Heat Sealed Evidence Envelope is a clear plastic bag or other suitable container
used to hold seized currency or other property. With limited exceptions, the envelope or
other container should not be opened until the currency is transported to a bank for
conversion to a cashier’s check, or processed as an evidentiary exhibit. When an evidence
container has been opened, the evidence and all parts of the old evidence container should
be put in a new evidence bag or container and resealed. Details of the opening and
resealing of the container should be recorded on a Form DEA-6, Report of Investigation.


                                            viii
                    Presence of a Witnessing Agent or Officer
                at Various Stages of the Cash Handling Process11

                                                                                      4%
       Witness Present
                               21%                             75%
       During Sealing
       Witness Present
       During Transport          30%                         49%                21%
          to the DEA
       Witness Present
       During Transport                    63%                            26%     11%
         to the Bank
                                         Yes        Could not determine   No

   Source: OIG analysis of DEA records

     The detailed results for each office and Division tested are shown in
Appendix VI. Among the 28 DEA offices we tested, we found that:

       •    the compliance rate for having a witness present during sealing of
            the cash ranged from 89 percent in 1 office to 0 percent in 11
            offices,

       •    the compliance rate for having a witness present during transport
            to the DEA ranged from 79 percent in 1 office to 0 percent in 5
            offices, and

       •    the compliance rate for having a witness present during transport
            to the bank ranged from 100 percent in 4 offices to 6 percent in 1
            office.

      DEA officials told us that based on their extensive prior experience in
managing investigations they believed witnesses were usually present when
the cash was sealed in the evidence envelope and that the evidence
envelope contained the signature of the witnessing agent. However, the
DEA discarded the evidence envelopes after the cash was counted by the

       11
           “Yes” means documentation showed that a witnessing agent or officer was
involved. “No” means documentation showed that only one agent or officer was involved.
“Could not determine” means the documentation did not provide sufficient information to
confirm whether a witnessing agent or officer was involved. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus: (1) 6 percentage points of what they would have been if the
entire population had been tested for the test of a witness present during sealing of the
cash, (2) 6 percentage points for the test of a witness present during transport of the cash
to the local DEA office, and (3) 2 percentage points for the test of a witness present during
transport of the cash to the bank.


                                               ix
bank and usually did not document in other case records that a witness was
present during sealing of the cash in the evidence envelope. The DEA
officials also told us that they believed witnesses were usually present when
the cash was transferred to the local DEA office and to the bank, but the
agents did not document this fact. However, without such documentation
we cannot confirm whether or not a witness was actually present during
sealing of the cash in the evidence envelopes or during transport of the cash
to the DEA office and bank.

Control Tested: Beginning January 1, 2005, DEA required that all high-
value seized items, including cash, cashier’s checks, and recovered Official
Advanced Funds valued at $1,000 or more be recorded in a High-Value
Seized and Recovered Monies (HVSRM) ledger.12

Test Results: As shown in the following chart, the documentation we
reviewed showed that the evidence custodians consistently did not record
cash seized in the HVSRM ledger.13

                     Recording Seized Cash in the HVSRM Ledger14



                 Seized Cash
                Recorded in the     19%                     81%
                HVSRM Ledger

                                                      Yes   No

            Source: OIG analysis of DEA records

     The detailed results for each office and Division we tested are shown in
Appendix VII. Among the 28 DEA offices tested, the compliance rate ranged
from 100 percent in 2 offices to 0 percent in 21 offices.



       12
          Recovered Official Advanced Funds are DEA-appropriated monies previously
expended for the purchase of evidence or lost through theft during undercover or similar
operations that was recovered by the DEA.
       13
         An evidence custodian is a DEA employee designated to maintain custody and
accountability over seized property.
       14
          “Yes” means documentation showed that the cash seizure tested was recorded on
the HVSRM ledger. “No” means documentation showed that the cash seizure tested was not
recorded on the HVSRM ledger. Based on our statistically valid projected point estimates,
the percentages reported in this analysis of the sampled items are within plus or minus 5
percentage points of what they would have been if the entire population had been tested.


                                                  x
      We found that many cash seizures were not being recorded in the
HVSRM ledgers because DEA offices were not using the ledgers as intended.
For the 28 DEA offices we tested, we found that only 6 offices (21 percent)
used the HVSRM ledger to record all types of high-value seized and
recovered items. The remaining 22 DEA offices either used the HVSRM
ledger to record some types of high-value items but not others, or did not
use the HVSRM ledger at all.

      We attribute the disparity in how different DEA offices used the HVSRM
ledgers to the evidence custodians not having attended current training on
DEA’s cash handling procedures. Not recording seized cash on the ledgers
can cloud the chain-of-custody for seized cash and potentially can lead to
problems in prosecuting the case. It also increases the risk that seized cash
could be lost or stolen without detection.

Control Tested: The DEA Agents Manual requires agents to transfer seized
cash to the bank for an official count and conversion to a cashier’s check as
soon as arrangements can be made with the bank.15

Test Results: As shown in the following chart, in most cases the
documentation we reviewed showed that the DEA transported seized cash to
the bank in a timely manner. Overall, the average time from seizure to
transporting the seized cash to the bank was 3.2 working days. Three of the
seven divisions we tested had average times at or below the average and
the other four divisions had average times ranging from 3.3 to 4.7 working
days. The detailed test results for each office we tested are shown in
Appendix VIII.




       15
           This control became effective on April 5, 2005. Prior to this date, the DEA’s policy
required that for unknown amounts of cash agents were to transport the cash to the bank
for an official count and conversion to a cashier’s check on the next business day following
the seizure. If the exact amount was known, the agents were to transport the cash to the
bank within 5 working days.


                                              xi
                Average Number of Working Days from Seizure
                to Transport of Cash to the Bank (By Division)

        DEA Division
        New Orleans                  1.4

              Detroit                  1.6

             Houston                       1.8
        Average for
       all 7 Divisions                                    3.2

         Los Angeles                                       3.3

         Washington                                             3.5

               Miami                                                  4.5

           New York                                                         4.7


               Average time for the Division         Average for all divisions tested

     Source: OIG analysis of DEA records

      We found that some offices took seized cash to the bank much sooner
than others. As shown in Appendix VIII, for the 28 DEA offices we tested
the average working days from when the cash was seized to when it was
taken to the bank ranged from a low of 0.5 days in one office to 7.4 days in
another office. Seventeen (61 percent) of the 28 offices were at or below
the average of 3.2 working days, while 11 offices (39 percent) were above
the average. The disparity resulted because some offices required agents to
take the cash to the bank daily, while other offices required weekly trips to
the bank. Other offices did not have set schedules for taking cash to the
bank but instead made impromptu bank trips when agents were available.
While most of the offices took the cash to the bank in a timely manner, the
DEA should review the cash handling processes in the most timely Divisions
– New Orleans, Detroit, and Houston – to determine if those processes can
be used in other offices to reduce the time that cash is on hand.

Control Tested: According to the DEA Agents Manual, seized property that
is subject to forfeiture and not retained as evidence must be transferred to
the custody of the USMS within 15 working days of seizure.

Test Results: As shown in the following chart, with the exception of the
Detroit Division the documentation we reviewed showed that the DEA
generally transferred seized cash to the USMS in a timely manner. Overall,
the average time from seizure to transfer of the seized cash to the USMS

                                               xii
was 10.6 working days. Four of the seven divisions had average times of
5.6 to 10.2 working days and the other three divisions had average times
ranging from 10.9 to 15.6 working days as shown in the following chart.
The detailed results for each office we tested are shown in Appendix IX.

                       Average Number of Working Days from
                       Seizure to Transfer of Cash to the USMS

       DEA Division
         New York                             5.6

      Los Angeles                                            9.6

           Houston                                           9.6

       Washington                                              10.2
      Average for
     all 7 Divisions                                               10.6

      New Orleans                                                  10.9

             Miami                                                        13.3

            Detroit                                                                 15.6


               Division average was within 15        Division average exceeded 15
               working day limit                     working day limit
               Average for all divisions tested

     Source: OIG analysis of DEA records

       While the overall averages for 6 of the 7 divisions tested were within
the 15 working day limit established by the DEA, we found that 10 of the 28
individual DEA offices tested exceeded the limit for the cash seizures we
tested. As shown in the chart at Appendix IX, for the sample seizures tested
the average time from seizure to transfer of the cash to the USMS for these
10 offices ranged from 15.2 to 28.8 working days. Of the 116 seizures we
tested in the 10 offices, 74 seizures were transferred to the USMS after
more than 15 working days. Some offices had the banks wire the funds
directly to the USMS instead of obtaining a cashier’s check from the bank
and then providing the check to the USMS. None of the 10 offices that
exceeded the 15-day limit used the wire transfer process. The DEA Agents
Manual encourages Divisions to collaborate with the USMS to arrange for
wire transfers in cities where this procedure is not already in place. We
believe that the use of wire transfers could significantly reduce the amount
of time that seized funds remain in the possession of the DEA and reduce
the risk of loss.

                                              xiii
Control Tested: According to the DEA Agents Manual, DEA employees are
required to use a DEA-12, signed by the transferring agent and witnessed by
another law enforcement employee, to document the transfer of any high-
value item to the evidence custodian. In some cases, DEA guidance allows
the transfer of cash using the DEA-12 or another acceptable form, such as
the DEA-7a, or Standard Seizure Form (SSF).16 When cash is seized and
taken to the local DEA office during regular duty hours, the agent is to
release custody of the seized cash to the evidence custodian using a DEA-
12, DEA-7a, or SSF. After regular duty hours, the agent is required to place
the cash in temporary overnight storage using a DEA-12 or DEA-7a and
make an entry in the temporary overnight ledger.17 Copies of the DEA-12,
DEA-7a, and SSF documenting the delivery of the cash are to be put in the
case files and preserved as part of the chain-of-custody records.

Test Results: As shown in the following chart, the documentation we
reviewed showed that agents in many of the DEA offices did not use a
DEA-12, DEA-7a, or SSF to document the transfer of seized cash when
placing the seized cash into temporary overnight storage for the evidence
custodian or when transferring the cash directly to an evidence custodian.




       16
           The DEA-7a is a form for documenting the acquisition of non-drug property. The
SSF is a 5-page form that includes case and asset information, names and addresses of
potential claimants, and other details such as probable cause and chain-of-custody
information.
       17
           According to the DEA Agents Manual, temporary storage refers to a safe, locker,
or other secure place. Many DEA offices have bank-style night drops or similar facilities for
overnight temporary storage of high-value items such as cash. Agents are not permitted to
store seized currency in locked desks, unoccupied vehicles, or hotel rooms.


                                             xiv
                     Transfer of Cash to the Evidence Custodian
                     Using the Proper Chain-of-Custody Form18



            Agents Transferred
                Cash Using          26%                     74%
               Proper Form

                                                    Yes    No

            Source: OIG analysis of DEA records

     The detailed results for each office and Division we tested are shown in
Appendix X. Among the 28 DEA offices we tested, the compliance rate
ranged from 100 percent in 1 office to 0 percent in 16 offices.

      The evidence custodians and other DEA officials in the offices we
tested told us that making an entry in the HVSRM ledger was sufficient to
document the transfer of the currency to an evidence custodian. However,
we found instances where the transfer of cash to the evidence custodian was
not documented on the proper chain-of-custody form and the cash was not
recorded in the HVSRM ledger. Therefore, it is critical that the chain-of-
custody forms be completed when transferring seized cash to ensure that
accountability of the cash is maintained.

Conclusion and Recommendations

      In summary, while the DEA had issued comprehensive policies for
safeguarding seized cash, we found areas in which the policies needed
strengthening. We believe the DEA needs to: (1) better define when seized
cash should be counted immediately by the seizing agent or officer,
(2) define a timeframe for seized cash to be taken to the bank to ensure
that offices minimize the time during which they hold all seized cash and
particularly the seized cash that the offices do not count, and (3) speed the
transfer of seized cash to the USMS by mandating the use of wire transfers
where possible.

       18
           “Yes” means documentation showed that the agents transferred the seized cash
to the evidence custodian using a DEA-12 or other appropriate form. “No” means
documentation showed that the agents transferred the seized cash to the evidence
custodian without using a DEA-12 or other appropriate form. “Could not determine” means
the documentation did not provide sufficient information to confirm whether agents
transferred the seized cash to the evidence custodian using a DEA-12 or other appropriate
form. Based on our statistically valid projected point estimates, the percentages reported in
this analysis of the sampled items are within plus or minus 3 percentage points of what they
would have been if the entire population had been tested.


                                             xv
      In addition, we also found that the DEA did not follow, or did not
document that it followed, many established critical internal control policies.
For most seizures we tested, we found no documentation indicating that a
witnessing agent or task force officer was present at critical stages of the
cash handling process. Further, we found many instances in which agents
and task force officers generally did not count the seized currency; did not
provide a receipt to the subject from whom the currency was taken; did not
complete documents transferring custody of the currency to an evidence
custodian; and did not record the receipt, transfer, or disposal of the
currency in a temporary or permanent control ledger.

      The DEA’s failure to either implement these controls, or document that
the established controls were implemented, occurred primarily because DEA
agents and evidence custodians had not received the DEA’s current training
on handling seized cash. In addition, we found DEA agents were in need of
additional guidance on how to document that established controls were
followed.

      Failure to establish effective controls for safeguarding seized cash can
lead to discrepancies, accusations of theft, or misappropriation of seized
cash. We identified 12 instances where either the DEA’s Office of
Professional Responsibility (OPR) or the OIG’s Investigations Division
investigated allegations of stolen or missing seized cash and the
investigations showed that DEA personnel did not follow established controls
for safeguarding the seized cash. Problems identified include agents not
counting the seized cash, not providing a DEA-12 receipt to the suspect, and
transporting the seized cash without a witness present.

     In this report, we make the following recommendations to improve the
DEA’s handling of seized cash.

      •   Clarify the policy on when seized cash should be counted to clearly
          define the circumstances under which it is and is not appropriate to
          count cash at the time of seizure.

      •   Research best practices associated with timely transport of seized
          cash to banks and implement those practices as widely as possible.

      •   Ensure that seized cash transported to banks is wire-transferred to
          the USMS whenever possible.

      •   Issue to all staff involved in cash seizure activities periodic
          reminders of the internal controls to be followed and documented.


                                      xvi
•   Instruct DEA staff who supervise cash handling activities to monitor
    documentation, such as the Report of Investigation (DEA-6) and
    other cash handling forms completed by agents, to ensure the
    forms are sufficiently detailed to show that cash handling controls
    are followed. In addition, instruct the supervisors to ensure that
    the required forms are maintained in the case files.

•   Identify all evidence custodians who have not attended the DEA’s
    comprehensive classroom training course that includes training on
    cash handling controls and ensure the custodians attend the
    training.

•   Ensure that periodic reviews and inspections contain steps to
    measure DEA’s implementation of the cash handling controls for
    counting seized cash and for transporting seized cash to the bank in
    a timely manner.




                                xvii
                               TABLE OF CONTENTS

INTRODUCTION .............................................................................       1
Background....................................................................................   1
Prior Audits, Inspections, and Reviews ..........................................                4
   General Accounting Office Report ....................................................         4
   DEA’s Office of Inspections Reports .................................................         5
   Department’s Office of the Inspector General Report..........................                 7
   DEA’s Office of Professional Responsibility Case Reports .....................                7

FINDINGS AND RECOMMENDATIONS.............................................. 9

CONTROLS ESTABLISHED TO SAFEGUARD SEIZED CASH WERE
OFTEN NOT FOLLOWED OR NOT DOCUMENTED AS FOLLOWED ........ 9

   THE DEA’S INTERNAL CONTROLS OVER CASH SEIZURES ............ 9
     Controls to Safeguard Cash upon Seizure ................................... 10
     Controls for Transferring Seized Cash to the Local DEA Office
       or to the Bank ..................................................................... 11
     Controls for Transferring Seized Cash to the USMS ...................... 12
     Conclusion about DEA’s Controls over Cash Seizures.................... 13

   IMPLEMENTATION OF CONTROLS FOR SAFEGUARDING
     SEIZED CASH......................................................................... 13
      Preliminary Audit Testing (Phase I)............................................ 13
      Additional Audit Testing (Phase II) .............................................. 16
      Results of Audit Testing ............................................................. 17
         Presence of a Witnessing Agent or Officer When Cash is Seized ... 18
         Counting Seized Cash............................................................ 19
         Providing a Receipt to the Owner of Seized Cash ....................... 23
         Presence of a Witnessing Agent or Officer When Handling
           Seized Cash ...................................................................... 24
         Recording Cash Seizures in the High-Value Seized and
           Recovered Monies Ledger.................................................... 26
         Timeliness of Transporting Seized Cash to the Bank for an
           Official Count and Conversion to a Cashier’s Check ................. 28
         Timeliness of Transferring Seized Cash to the USMS .................. 30
         Maintaining Chain-of-Custody Records ..................................... 31
         Training and Website Guidance ............................................... 33
         Documentation Errors and Supervisory Oversight ...................... 34

Conclusion .................................................................................... 35
RECOMMENDATIONS ..................................................................... 36
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 38

ABBREVIATIONS ............................................................................ 39

APPENDIX I – Audit Objective, Scope, and Methodology ................ 40

APPENDIX II – Statistical Sample Design ...................................... 45

APPENDIX III – Presence of a Witnessing Agent or Officer
               when Cash was Discovered ................................. 47

APPENDIX IV – Counting Seized Cash ........................................... 50

APPENDIX V – Agents Provided a Receipt or Warrant to the
             Owner of the Seized Cash ...................................... 53

APPENDIX VI – Presence of a Witnessing Agent or Officer at
              Various Stages of the Cash Handling Process ....... 56

APPENDIX VII – Recording Seized Cash in the HVSRM Ledger ....... 63

APPENDIX VIII – Average Number of Working Days from Seizure
                To Transport of Cash to the Bank (By Office) ..... 66

APPENDIX IX - Average Number of Working Days from Seizure
              To Transfer of Cash to the USMS (By Office) .......... 67

APPENDIX X – Transferring Seized Cash to the Evidence
             Custodian Using the Proper Chain-of-Custody
              Forms ................................................................... 68

APPENDIX XI – DEA’s Response to the Draft Audit Report............. 71

APPENDIX XII – Office of the Inspector General, Audit Division,
               Analysis and Summary of Actions Necessary to
               Close the Report.................................................. 74
                                 INTRODUCTION

Background

       The Drug Enforcement Administration’s (DEA) mission is to:
(1) enforce the controlled substances laws and regulations of the
United States; and (2) bring to justice those organizations and individuals
involved in the growing, manufacture, or distribution of controlled
substances.19 To ensure that criminal organizations and individuals do not
benefit financially from their illegal acts, federal law provides that profits
from drug-related crimes, as well as property used to facilitate certain
crimes, are subject to forfeiture to the government. The Department of
Justice (Department) established the Asset Forfeiture Program (AFP) to
manage the Department’s efforts to seize assets, including cash, used in the
illegal drug trade and to forfeit those assets to the government.

       While the DEA is the primary Department component involved in the
forfeiture of cash seized during drug enforcement investigations, state and
local law enforcement agencies also seize cash during their drug
enforcement operations. Those efforts are not part of the AFP, but assets
seized solely through the efforts of state and local law enforcement agencies
may be transferred for forfeiture to a federal agency such as the DEA that
participates in the AFP. Transferred seizures are referred to as “adopted”
seizures because the federal agency adopts the seizures made by the state
or local agencies. The federal adoption of seizures is sometimes more
advantageous to state and local law enforcement agencies because some
state or local laws require that seized funds be returned to the agency’s
general fund instead of being used directly by the state or local law
enforcement agency. When a federal agency adopts the seizure, the state
or local agency that conducted the seizure often receives a share of the
funds seized and those funds must be used for law enforcement purposes.
In adopted seizures, the state or local agency usually converts the seized
cash to a cashier’s check and transfers the cashier’s check to the DEA.

       The DEA’s policy is that its staff should promptly convert cash they
directly seize to a cashier’s check and promptly transfer the cashier’s checks,
including those adopted from state or local agencies, to the


       19
           A controlled substance is a drug which has been declared by federal or state law
to be illegal for sale or use, but may be dispensed under a physician's prescription. The
basis for control and regulation is the danger of addiction, abuse, physical and mental harm
(including death), the trafficking by illegal means, and the dangers from actions of those
who have used the substances.


                                             1
United States Marshals Service (USMS). According to 28 Code of Federal
Regulations, Part 0, Subpart T, Section 0.111, (i), the USMS serves as
custodian of seized and forfeited assets. The USMS also provides
information and assistance to prosecutors to make decisions about assets
targeted for forfeiture. To manage the disposal of seized cash or other
seized assets that have been converted to cash, the USMS administers the
Seized Asset Deposit Fund (SADF) and the Assets Forfeiture Fund (AFF).

      The SADF serves as a repository for seized funds until the funds are
either forfeited to the government or returned to the owner. Because seized
funds held in the SADF are not government property, the funds cannot be
spent by the government. Upon successful completion of forfeiture actions,
the USMS transfers seized funds from the SADF to the AFF where the funds
can be used to cover expenditures in support of the AFP. Allowable uses
include:

     •   asset management expenses incurred in connection with the
         seizure, inventory, appraisal, packaging, movement, storage,
         maintenance, security, and disposition of the assets;

     •   investigation and prosecution-related expenses;

     •   payments of third party interests against the seized asset, including
         those incurred in the payment of valid liens, secured mortgages,
         and debts owed to qualified general creditors;

     •   equitable sharing payments to state and local agencies that
         participated in the law enforcement effort resulting in forfeiture;
         and

     •   other program management expenses such as supplies, equipment,
         rent, travel, and other services.

      The Department uses an information technology system called the
Consolidated Asset Tracking System (CATS) to track assets seized by federal
law enforcement agencies or those seized by state or local law enforcement
agencies and adopted by the DEA. For each item seized by the DEA and
other Department components, CATS contains data on the seizing agency,
date of seizure, value at seizure, current value, agency with custody of the
asset, custody start and end dates, and disposition date.

     As shown in the following chart, the CATS data reflect that from
October 1, 2003, through November 3, 2005, the DEA made or adopted
16,007 cash seizures totaling almost $616 million.

                                       2
                 Number and Dollar Value of Cash Seizures
              from October 1, 2003, through November 3, 2005
                                                                     20
                                       (in millions of dollars)

                                           Adopted    DEA Seizures        Total

                       $0       $10    $20     $30        $40    $50        $60      $70    $80   $90
      DEA Division
            Atlanta
                            1,346/$32.36              763/$53.31                  2,109/$85.67
      Los Angeles
                              213/$8.14              1,267/$65.85                 1,480/$73.99
           New York
                             805/$10.65               881/$57.05                  1,686/$67.70
             Detroit
                              171/$4.97               618/$42.33                   789/$47.30
           St. Louis
                             302/$22.46               616/$21.77                   918/$44.24
            Houston
                               94/$8.93               507/$33.15                   601/$42.08
      New Orleans
                               66/$5.48               591/$31.67                   657/$37.15
              Miami
                               35/$0.80               773/$35.57                   808/$36.37
            Chicago
                             988/$10.34               651/$24.20                  1,639/$34.54
      Washington
                              601/$6.79               703/$14.33                  1,304/$21.12
             Dallas
                               44/$1.26               227/$14.49                   271/$15.75
            Newark
                                4/$0.28               158/$14.12                   162/$14.39
             Boston
                              247/$3.63               456/$10.73                   703/$14.37
            El Paso
                               64/$1.32               341/$12.25                   405/$13.56
            Phoenix
                               15/$0.87               367/$12.13                   382/$13.00
        San Diego
                              137/$1.72               552/$10.10                   689/$11.82
      Philadelphia
                               23/$1.03               338/$10.39                   361/$11.42
   Rocky Mountain
                               92/$2.15                231/$9.19                   323/$11.34
    San Francisco
                              142/$2.99                213/$4.83                    355/$7.82
             Seattle
                               36/$0.80                244/$6.35                    280/$7.15
        Caribbean
                               13/$0.70                   72/$4.46                   85/$5.16
            TOTALS      5,438/$127.68           10,569/$488.27                16,007/$615.95

 Source: Consolidated Asset Tracking System


      20
            This chart presents for each DEA Division office the number and amount of
adopted cash seizures (in red), the number and amount of DEA cash seizures (in blue), and
the number and amount of total cash seizures (numbers only in black). The totals may
differ slightly from the sum of the adopted and DEA amounts due to rounding. All data
shown is for the period October 1, 2003, through November 3, 2005, except for the
Washington Division data which is for the period October 1, 2003, through September 30,
2005.


                                                      3
Prior Audits, Inspections, and Reviews

General Accounting Office Report

       In a November 1999 report, the General Accounting Office (GAO)
reported on the DEA’s controls over seized drugs and weapons.21 While the
GAO did not examine controls over seized cash, it addressed related controls
over other forms of evidence and reported problems very similar to those we
identify in this report. The GAO found that the DEA had established
numerous policies and procedures to control and safeguard drug and weapon
evidence in its custody. However, the GAO concluded that based on its work
at four Division offices and laboratories and the results of the DEA’s internal
inspections performed from March 1996 through August 1998, specific
actions were needed to strengthen accountability over and safeguarding of
drug and weapon evidence. The GAO stated that such actions would help
reduce the potential for theft, misuse, or loss of drug and weapon evidence
and the risk of evidence being compromised for federal prosecution purposes
while in DEA custody.

      The GAO recommended that the DEA take appropriate steps to
reinforce its adherence to existing DEA policies regarding:

      • requiring that two signatures be recorded on evidence labels prior
        to acceptance by laboratory and division office evidence custodians;

      • maintaining complete and properly reviewed documentation in the
        laboratory seizure files; and

      • maintaining complete and accurate information in logbooks.

      In its comments on the GAO report, the DEA agreed that the
accountability and safeguarding of evidence is of critical importance, but
stated that the GAO did not emphasize the significant actions that the DEA
had taken to ensure its polices and procedures were followed. However, the
DEA indicated that it would take the appropriate steps to reinforce its
adherence to existing policies or to implement new policies as recommended
by the GAO.



      21
         General Accounting Office, Report Number AIMD-00-17, Seized Drugs and
Weapons: DEA Needs to Improve Certain Physical Safeguards and Strengthen
Accountability, November 1999. On July 7, 2004, the General Accounting Office was
renamed the Government Accountability Office.


                                           4
DEA’s Office of Inspections Reports

      In a February 2001 review, the DEA Office of Inspections reported that
the DEA’s problems with custodial accountability remained unresolved.22
The report found that: (1) evidence custodians received little or no training
regarding proper handling of seized and recovered monies, (2) the DEA
Agents Manual regarding when to record money on a Standard Seizure Form
(SSF) or a DEA Form-7a was confusing and subject to different
interpretations, and (3) evidence custodians had no point-of-contact to
answer questions about handling seized monies.23 The DEA also found that
agents were confused as to when they should use an SSF and when they
should use a Form DEA-7a to submit evidence to evidence custodians for
safekeeping.

      The DEA Office of Inspections also performs cyclical inspections of
Division field offices. These inspections cover key program areas, including
the handling of seized and recovered cash. The DEA issues inspection
reports outlining inspection findings and requires Division offices to take
appropriate corrective actions. We requested that the DEA provide us with
all DEA Division inspection reports since July 2002 that contained findings
related to the handling of seized and recovered monies. In response to our
request, the DEA provided us with 11 inspection reports covering the DEA
Divisions of Atlanta, Boston, Chicago, Dallas, Denver, Houston, Miami,
Newark, New York, San Diego, and Washington, D.C. The reports identified
the following deficiencies related to the handling of seized and recovered
cash.

       •    In a June 2003 follow-up inspection in the Atlanta Division,
            inspectors reported that in several field offices a review of

       22
         Drug Enforcement Administration, Office of Inspections. Review of Custodial
Accountability for: Drug Evidence, Non-Drug Evidence, Seized Monies, Recovered Monies,
and Technical Equipment, February 2001.
       23
           The Form DEA-7a, Acquisition of Non-Drug Property, is used to document the
acquisition of non-drug property held by the DEA in excess of 5 working days. This form is
also used to: (1) record the receipt or delivery of non-drug evidence or high-value items to
the evidence custodians; (2) submit recovered “buy money” into evidence; (3) request
analysis by a DEA laboratory; (4) document entry of non-drug evidence into the Enhanced
Non-Drug Evidence Database System; and (5) support high-value item balances reported
quarterly on the High-Value Evidence and Safekeeping Report (HVESR), formerly known as
the Non-Drug Evidence Report. The Standard Seizure Form (SSF) is a 5-page form that
includes case and asset information, names and addresses of potential claimants, and other
details such as probable cause and chain-of-custody information. Agents are required to
complete the SSF within 10 working days of seizure. Information from the SSF is entered
into CATS for assets that will be forfeited.


                                             5
    investigative case files revealed improper handling of evidence,
    incomplete or missing documentation, and poor record-keeping
    practices. The report also stated that the self-inspection conducted
    by the Atlanta Division reported “almost no deficiencies” or “minor
    deficiencies” in the program areas reviewed.

•   In the March 2005 inspection of the Dallas Division, evidence
    logbooks were not properly maintained, seized and recovered
    monies were not properly stored, and quarterly audits of currency
    evidence were not conducted.

•   In the January 2003 inspection of the San Diego Division, 21
    evidence exhibits had been out of the custody of the evidence
    custodian for periods of 70 to 1,358 days without proper
    authorization. In addition, paperwork for 415 evidence exhibits was
    submitted from 30 to 180 days late.

•   In the September 2002 inspection of the Washington, D.C. Division,
    evidence custodians were not DEA employees as required by DEA
    policy, evidence logbooks were not properly maintained, seized and
    recovered monies were improperly stored, and inventories of
    monies were not being conducted.

•   In the June 2004 inspection of the Denver Division, the Resident
    Agent-in-Charge did not provide a safe in the non-drug evidence
    vault to store seized and recovered monies as required.

•   In the July 2004 inspection of the Houston Division, the quarterly
    and annual inventories were being conducted by the seized monies
    custodian instead of by two disinterested parties and the
    inventories were not being recorded in the seized monies logbook.

•   In the September 2001 inspection of the New York Division, the
    inspection found seized cash documents and $157 in seized
    currency unattended.

•   In the August 2002 inspection of the Boston Division, September
    2004 inspection of the Chicago Division, March 2004 inspection of
    the Miami Division, and October 2003 inspection of the Newark
    Division, evidence logbooks were not properly maintained and
    quarterly audits of currency evidence were not conducted.




                                 6
Department’s Office of the Inspector General Report

      In a January 2004 inspection report that examined accountability for
evidence held at DEA field divisions, the OIG reported that more than 4
years after the GAO report and more than 2 years after the DEA report, the
DEA still had not corrected deficiencies including implementing program
guidance, improving DEA headquarters support, or developing training.
Consequently, some DEA field division staff continued to handle and store
evidence improperly.24 The OIG report focused on seized drugs and monies
and found instances of evidence loss that could compromise federal
prosecutions.

DEA’s Office of Professional Responsibility Case Reports

       The DEA’s Office of Professional Responsibility (OPR) receives
allegations of misconduct by agents and other DEA personnel, including the
theft or loss of defendants’ property such as seized cash. We requested that
the DEA provide us with documentation of all OPR investigations related to
the handling of seized and recovered monies since October 1, 2003. In
response to our request, the DEA provided us with documentation from 33
OPR investigations from October 1, 2003, through July 14, 2005, involving
allegations of theft or loss of defendants’ property. We reviewed the
documentation and noted that in 11 instances the OPR case reports noted
that agents did not properly handle, process, or dispose of the evidence.
The OPR investigations found that agents: (1) did not immediately count
the currency in five cases, (2) counted the currency without a witness in one
case, (3) did not give the subject a receipt for the currency in two cases,
(4) transported the currency to the bank alone in two cases, and (5) lost the
evidence bag or the defendant’s possessions while the defendant was in
custody in four cases. Some of the cases involved multiple violations of DEA
policies. Only 1 of the 11 case reports showed that an agent was counseled
or disciplined for not following the established procedures.

       In response to these prior reports from the GAO, OIG, and its own
staff, the DEA has issued additional guidance and training on the handling of
seized evidence. The DEA:

      •    developed a comprehensive classroom training program in 2005 for
           evidence custodians;


      24
         Department of Justice, Office of the Inspector General, Report Number
I-2004-003, Review of the Drug Enforcement Administration’s Custodial Accountability for
Evidence Held at Field Divisions, January 2004.


                                            7
       •    added a Frequently Asked Questions segment about the handling of
            evidence including seized and recovered monies to the DEA’s
            electronic library in 2005;

       •    required field offices, effective January 1, 2005, to begin using
            High-Value Seized and Recovered Monies Ledgers with pre-printed
            column headings to account for the receipt and disposition of
            non-drug evidence, high-value seized and recovered monies, and
            the temporary overnight storage of evidence;25 and

       •    revised the procedures for handling and processing currency and
            other high-value items in the DEA Agents Manual, Section 6682,
            Currency and High-Value Items. These procedures became
            effective April 5, 2005, and superseded similar policies contained in
            the DEA Agents Manual, Section 6681, Non-Drug Property.




       25
           The DEA defines a high-value item as anything valued in excess of $1,000 that is
readily convertible to currency. The three categories of high-value items are property, cash
and other monetary instruments, and recovered Official Advanced Funds (OAF). Property
includes jewelry, precious metals, computers, and phones. Cash and other monetary
instruments include certificates of deposit, stocks, traveler’s checks, and cashier’s checks.
Recovered OAF is DEA appropriated monies previously expended for the purchase of
evidence or lost through theft during undercover or similar operations that was recovered
by the DEA.


                                              8
              FINDINGS AND RECOMMENDATIONS

     CONTROLS ESTABLISHED TO SAFEGUARD SEIZED
     CASH WERE OFTEN NOT FOLLOWED OR NOT
     DOCUMENTED AS FOLLOWED

     While the DEA has established internal control policies for
     safeguarding seized cash, some of those policies are in need
     of clarification and strengthening. For example, the DEA
     should better define when seized cash should be counted,
     when the cash should be transported to a bank, and when
     wire transfers should be used. Moreover, our testing at 28
     DEA offices found that the DEA did not adequately follow
     many of its controls regarding cash seizures. For most
     seizures we tested, documentation did not show that a
     witnessing agent or task force officer was present at critical
     stages of the cash handling process, as required by the DEA
     Agents Manual. Further, we found that agents and task
     force officers generally did not follow DEA requirements on
     when to count the seized currency; did not provide a receipt
     to the subject from whom the currency was taken; did not
     complete documents transferring custody of the currency to
     an evidence custodian; and did not record the receipt,
     transfer, or disposal of the currency in a temporary or
     permanent control ledger. Following or documenting
     adherence to these important internal controls are critical to
     ensure that seized cash is properly safeguarded from loss,
     theft, or misuse.

THE DEA’S INTERNAL CONTROLS OVER CASH SEIZURES

      The DEA has implemented a system of controls requiring
documentation of the handling of seized cash in the presence of two officials
and a clear chain-of-custody over seized cash throughout the process. To
assess DEA’s cash handling controls, we interviewed DEA officials and
reviewed guidance established by the DEA. We concluded that the DEA had
developed comprehensive internal control policies to safeguard: (1) cash
during seizure, (2) cash during transfer to the local DEA office or to the
bank, and (3) cashier’s checks until transfer to the USMS. However, we
found evidence that these controls were not being followed. We first
describe the controls established by the DEA, and then discuss our testing of
the DEA’s compliance with these controls.



                                      9
Controls to Safeguard Cash upon Seizure

       As described in the DEA Agents Manual, the DEA established multiple
controls to safeguard cash during seizure. Section 6682 of the DEA Agents
Manual requires an agent discovering currency to immediately summon a
witnessing agent or officer. If the amount of currency is such that an
immediate count is “practical,” a count is to be conducted by the seizing
agent and witnessing agent or officer. However, the DEA Agents Manual
does not contain criteria to guide agents in determining whether or not a
count is practical. The manual does provide procedures to follow if the
amount of seized cash is “too large” for an immediate count, but the manual
does not define what amount of money is “too large.” As discussed later in
this report and detailed in Appendix IV, our testing identified significant
differences in when DEA offices count seized cash, and we found confusion
among many DEA employees about this policy. In fact, DEA officials in 9 of
the 28 offices we tested told us they believed it was the DEA’s policy that
agents should not count the seized cash. These results indicate that the
DEA needs to clarify its policy on under what circumstances cash is to be
counted.

      The manual also requires that a DEA agent or Task Force Officer and
another witnessing agent be present when the seized cash is secured in a
Heat Sealed Evidence Envelope (HSEE) and when the cash is transported to
the local DEA office or the bank for an official count.26 The manual further
requires that seized currency be counted and sealed in the HSEE in the
presence of the person from whom the currency was seized, providing the
person does not present a threat to the law enforcement officers.

     Agents are required to issue a Form DEA-12 (DEA 12), Receipt for
Cash or Other Items, to the person from whom the currency was seized
showing either the amount seized or that “an undetermined amount of




       26
           A Heat Sealed Evidence Envelope is a clear plastic bag or other suitable container
used to hold seized currency or other property. With limited exceptions, the HSEE or other
container should not be opened until the currency is transported to a bank for conversion to
a cashier’s check, or processed as an evidentiary exhibit. When an evidence container has
been opened, the evidence and all parts of the old evidence container should be put in a
new evidence bag or container and resealed. Details of the opening and resealing of the
container should be recorded on a DEA-6, Report of Investigation. The HSEE is discarded
after being opened at the bank for the bank’s official count.


                                             10
U.S. currency pending an official count” was seized.27 When currency is
seized as the result of a seizure warrant, law enforcement officers are not
required to issue a DEA-12.28 Instead, the officers are required to either
provide the person from whom the items were seized with a copy of the
warrant and a list of the items seized, or leave a copy of the warrant and the
list of items seized at the seizure location if the person from whom the items
were seized is not present.

      When cash is seized, the seizing agent is required to prepare a
Form DEA-6 (DEA-6), Report of Investigation, to document the events
surrounding the seizure. According to the DEA Agents Manual, the DEA-6
should record details surrounding the acquisition of any high-value item with
a value greater than $1,000 and should include details of the seizure and a
description of the articles, exhibit numbers, and chain-of-custody
information for each item of evidence.

      Section 6682 of the DEA Agents Manual requires the DEA evidence
custodians to document the receipt, transfer, and disposition of any
high-value item in a High-Value Seized and Recovered Monies (HVSRM)
Ledger book.

Controls for Transferring Seized Cash to the Local DEA Office or to the Bank

      The DEA established controls in the DEA Agents Manual to safeguard
seized cash during its transfer to the local DEA office or bank. When the
seized cash is taken to the local DEA office during regular duty hours, the
agent or task force officer is to release custody of the seized cash to the DEA
evidence custodian using a DEA-12; Form DEA-7a (DEA 7-a), Acquisition of
Non-drug Property form; or Standard Seizure Form (SSF). After regular
duty hours, the agent is to place the cash in temporary overnight storage
using the appropriate transferring document and make an entry in the




       27
          The DEA-12, Receipt for Cash or Other Items, is a multipurpose form used to
document the following actions: (1) providing a receipt to the owner, or person claiming
ownership, of property that is seized; (2) documenting the return of property held less than
5 working days; (3) placing non-drug evidence into temporary custody; and
(4) recording the short-term transfer of non-drug evidence exhibits between agents and
evidence custodians or other law enforcement personnel for production in court.
       28
          A seizure warrant is a written order by the court authorizing the search or seizure
of property.


                                             11
temporary overnight ledger.29 Copies of the DEA-6, DEA-7a, DEA-12, and
SSF should be maintained in the case files as part of the chain-of-custody
records.

      Section 6682 of the DEA Agents Manual states that seized currency not
retained as evidence must be transported to the bank by the seizing agents
as soon as arrangements can be made with the bank for an official count
and conversion to a cashier’s check.30 Prior to April 5, 2005, if the exact
amount of seized cash was unknown, the DEA Agents Manual required
agents to transport currency to the bank for an official count and conversion
to a cashier’s check on the next business day following the seizure. If the
exact amount was known, the agents were required to transport the cash to
the bank within 5 working days. Effective April 5, 2005, DEA made this
control less stringent by requiring agents to transport the currency to a bank
as soon as arrangements could be made with the bank. Later in this report
we present our assessment of the time taken by seven DEA Divisions to
transport cash to the bank. We note that the DEA Divisions in New Orleans,
Detroit, and Houston transported cash to the bank on average in 1.4, 1.6,
and 1.8 working days respectively. We also note that the DEA Divisions in
Miami and New York transported cash to the bank on average in 4.5 and 4.7
working days respectively. Under the DEA’s revised policy, each of these
Divisions is in compliance with the control although it appears the New
Orleans, Detroit, and Houston Divisions have achieved significantly better
accountability by limiting the time that they control seized cash.

Controls for Transferring Seized Cash to the USMS

      The Attorney General’s Guidelines on Seized and Forfeited Property
provide that seized cash, except when held as evidence, is to be deposited
promptly into the SADF.31 Transfers of cash to the USMS are required to
occur within 60 days of seizure or 10 days of indictment. However,
Section 6654 of the DEA Agents Manual requires that seized cash be
transferred to the USMS within 15 working days of seizure.


       29
          According to the DEA Agents Manual, temporary storage refers to a safe, locker,
or other secure place. Many DEA offices have bank style night-drops or similar facilities for
overnight temporary storage of high-value items such as currency. Agents are not
permitted to store seized currency in locked desks, unoccupied vehicles, or hotel rooms.
       30
            The DEA considers the bank’s count to be the official count for accountability
purposes.
       31
          United States Attorneys Manual, Chapter 9-118, The Attorney General’s
Guidelines on Seized and Forfeited Property, July 31, 1990.


                                               12
      As discussed later in this report and as detailed in Appendix IX, on
average DEA offices comply with the 15-day requirement. However, the
New York Division had an average transfer time of 5.6 working days as
compared to 9.6 to 15.6 working days for the other six Divisions. This
quicker transfer time for New York was linked to use of wire transfer of funds
rather than a cashier’s check. We believe the DEA could strengthen the
control for transferring cash to the USMS by requiring rather than
encouraging, as is currently done, the use of wire transfers.

Conclusion about DEA’s Controls over Cash Seizures

      The DEA has implemented internal control policies to safeguard seized
cash, but we believe the following improvements are needed.

      •   The DEA should better define what is meant by “practical” in its
          guidance for counting cash that states if the amount of currency is
          such that an immediate count is “practical,” a count is to be
          conducted by the seizing agent and witnessing agent or officer.

      •   The DEA should redefine a timeframe for seized cash to be taken to
          the bank to ensure that its offices minimize the time during which
          they hold all seized cash and particularly the seized cash that the
          offices do not count.

      •   The DEA could speed the transfer of seized cash to the USMS by
          mandating the use of wire transfers where possible.

IMPLEMENTATION OF CONTROLS FOR SAFEGUARDING SEIZED CASH

     While the DEA had established internal control policies for
safeguarding seized cash, we found that the controls were not adequately
implemented. Our testing of the DEA’s implementation of controls for
safeguarding cash is discussed in the following sections.

Preliminary Audit Testing (Phase I)

        To gain an understanding of the DEA’s handling of seized cash, we
initially tested cash seizures within the DEA’s Washington, D.C. Division from
October 1, 2003, through September 30, 2005. We selected a statistical
sample of 239 cash seizures valued at $4,314,740 from the Division’s
universe of 1,304 cash seizures valued at $21,119,512. The sample was
designed to be representative of all seizures by the Washington Division for
the period tested. The 239 cash seizures sampled were handled by four
Washington Division locations (Washington Division Office, Baltimore District

                                      13
Office, Richmond District Office, and Norfolk Resident Office). Our sample
included seizures made by state and local law enforcement agencies that
were adopted by the DEA, seizures from both open and closed investigative
cases, and seizures made before and after April 5, 2005, when the DEA’s
modified procedures for handling and processing seized currency became
effective. For each of the seizures sampled, we interviewed DEA officials
and reviewed documentation from case files to determine the following.

       •    Were two agents present when the cash was discovered?

       •    Did the agents or officers count the cash?

       •    Did the agents issue a receipt to the person claiming ownership of
            the currency or, if the cash was seized under a warrant, did the
            agents leave a copy of the warrant on the premises?

       •    If agents counted the cash, did their count agree with the bank’s
            count and, if not, were the discrepancies adequately researched
            and explained?

       •    Were two agents present when the cash was sealed in an evidence
            container, transported to the local DEA office, and transported to
            the bank?

       •    Did the agents or officers complete the proper chain-of-custody
            documents when transferring custody of the cash to the evidence
            custodian (only applies if cash was taken to the local DEA office
            during regular duty hours)?

       •    Did the agents or officers complete the proper chain-of-custody
            documents when placing seized cash in a secure overnight storage
            location (only applies if cash was taken to the local DEA office after
            regular duty hours)?32

       •    Were the chain-of-custody documents signed and witnessed by two
            law enforcement officers?

       •    Did the evidence custodians record the receipt and disposition of
            cash and cashier’s checks in the HVSRM Ledger?

       32
          To complete this test, we compared the date of seizure to the date the currency
was converted to a cashier’s check. If those dates were different, the agents should have
placed the currency in secure storage along with the appropriate transferring documentation
and made a entry in an overnight ledger.


                                            14
      •   Did the agents or officers transport the cash to the bank for an
          official count in a timely manner?

      •   Did the DEA transfer custody of seized cash to the USMS within 15
          working days of seizure?

     Our preliminary testing indicated that the Washington Division
generally transported seized currency to the bank for an official count and
conversion to a cashier’s check and transferred the cashier’s checks to the
USMS in a timely manner. However, the Division either did not follow or did
not maintain documentation to show that:

      •   agents counted the seized cash;

      •   agents issued a receipt to the owner of seized cash or left a copy of
          the seizure warrant on the premises;

      •   two agents were present when cash was sealed in an evidence bag
          or other container, transported to the DEA office, and transported
          to the bank;

      •   seized and recovered cash was recorded in a control ledger;

      •   chain-of-custody records were maintained to document the custody
          of the cash from seizure until the cash was taken to the bank; and

      •   the DEA-6, Report of Investigation, included sufficient details
          concerning the seizure and handling of cash such as the names of
          the two agents involved in the discovery, counting, sealing, and
          transporting of the currency.

       We briefed DEA headquarters and field office officials on the results of
our preliminary audit tests at the Washington Division. DEA officials told us
that based extensive prior experience in managing investigations they
believed two agents were present for some of the seizure activities but their
presence was not documented. Although the DEA policy is for agents to
count seized cash when such counts are practical, the officials also said that
agents do not like to count seized cash because of problems that could result
if the agents’ count differs from the bank’s count. The DEA officials told us
that the seal attached to the evidence bag or container would show the
signatures of the two agents involved in sealing the cash. However, DEA
officials told us that the evidence bags are no longer needed after the bank
counts the cash and thus the evidence bags are discarded and unavailable
for subsequent testing.

                                       15
Additional Audit Testing (Phase II)

       Because our preliminary audit work demonstrated that controls for
safeguarding seized cash were not consistently followed, we performed
additional testing at other DEA offices. We selected 503 cash seizures
totaling $40,665,978 at 24 DEA locations within 6 additional DEA Divisions.
Including the preliminary sample reviewed for the Washington Division, our
complete sample consisted of 742 cash seizures valued at $44,980,718 from
28 DEA locations within 7 DEA Divisions.33 The 742 cash seizures sampled
were selected using statistical sampling techniques to be representative of
all DEA cash seizures in the universe from which the seizures were sampled.
The statistical sampling techniques we used are presented in Appendix II.
The number and dollar value of seizures we tested at each DEA office and
Division are shown in the following table.

               Number and Dollar Value of Cash Seizures Tested

                                                    Number of   Dollar Value of
                      Division/Office                Seizures      Seizures
           New York Division
              New York Division Office                     30         $975,235
              New York Task Force Office                   30       $7,740,242
              Long Island District Office                  21         $631,870
              Syracuse Resident Office                     15       $1,285,106
              John F. Kennedy Airport Office                9         $619,646
              Total                                       105     $11,252,099
           Houston Division
              Houston Division Office                      30       $1,214,181
              McAllen District Office                      25       $9,240,962
              Brownsville Resident Office                   6          $37,843
              Austin Resident Office                        4          $66,119
              Total                                        65     $10,559,105




      33
          Our statistical sample was derived from a sample universe of 3,705 seizures
valued at $160,680,618. As previously stated, the overall universe was 16,007 seizures
valued at $616 million. Appendix I includes a detailed discussion of why certain cash
seizures were excluded from our sample universe based on requests from the DEA or based
on the results of our preliminary testing.


                                               16
                                                    Number of     Dollar Value of
                         Division/Office             Seizures        Seizures
             Detroit Division
                Detroit Division Office                      30        $2,693,179
                Columbus District Office                     29        $3,437,611
                Cleveland Resident Office                    24          $331,043
                Dayton Resident Office                        6          $109,495
                Total                                        89       $6,571,328
             Los Angeles Division
                Los Angeles Division Office34                50        $3,657,064
                Riverside District Office                    30        $2,082,283
                Ventura Resident Office                       7          $248,576
                Total                                        87       $5,987,923
             Washington Division35
                Washington Division Office                 117           $798,716
                Baltimore District Office                   89         $1,855,260
                Richmond District Office                    23         $1,447,647
                Norfolk Resident Office                     10           $213,117
                Total                                      239        $4,314,740
             New Orleans Division
                Birmingham Resident Office                   30        $2,035,693
                Montgomery District Office                   29        $1,043,643
                Oxford Resident Office                        9          $314,194
                Total                                        68       $3,393,530
             Miami Division
                Miami Division Office                       32         $1,315,102
                Orlando District Office                     24           $548,041
                Tampa District Office                       16           $673,088
                West Palm Beach Resident Office              9           $222,832
                Ft. Lauderdale District Office               8           $142,930
                Total                                       89        $2,901,993
             Grand Total                                   742       $44,980,718
            Source: Statistical sample taken from CATS

Results of Audit Testing

      We found that DEA Divisions consistently did not fully implement or
document implementation of many critical controls established to safeguard
seized cash. The detailed results of our testing of controls for the 742
sampled seizures are contained in the following 8 sections.




       34
          The 50 seizures tested for the Los Angeles Division Office included 20 seizures for
the Los Angeles Airport Group Office.
       35
           The number of cash seizures tested in the Washington Division included both
adopted seizures and DEA seizures. After our preliminary testing in the Washington
Division, we excluded adopted seizures from our expanded testing, as explained in
Appendix I. Thus, we tested more seizures in the Washington Division than in the other
DEA Divisions.


                                              17
Presence of a Witnessing Agent or Officer When Cash is Seized

      A critical control for safeguarding cash requires that when an agent
locates cash, the agent immediately summons a witnessing agent or officer.
This control is essential to ensure that seized cash is always handled in the
presence of two or more agents or officers to minimize the risk that seized
cash is lost or stolen. For the 742 cash seizures tested, we reviewed the
DEA-6 and other documentation from the DEA case files to determine if DEA
agents followed the control. Overall, we found that in the documentation for
31 percent of the cash seizures, there was no indication that a witnessing
agent or officer was present. A summary of our test results for this control
is shown in the following chart.

                     Presence of a Witnessing Agent or Officer
                           when Cash was Discovered36


     Witness Present
     During Discovery                          69%                    12%      19%


                                         Yes        Could not determine   No

   Source: OIG analysis of DEA records

      The detailed results for each office and Division tested are presented in
Appendix III. Among the 28 DEA offices tested, the compliance rate ranged
from 100 percent in four offices (McAllen, Texas, District Office; Resident
Offices in West Palm Beach, Florida; and Austin, Texas; and the John F.
Kennedy Airport Office in New York) to 22 percent in the Washington
Division Office.

      DEA officials told us that based on their extensive prior experience in
managing investigations they believed a witness was usually present when
the cash was discovered but that the agents just did not document the
presence of a witness. However, without such documentation, we could not
determine whether or not a witness was actually present during discovery of


      36
           “Yes” means the DEA-6, Report of Investigation, or other documentation showed
that a witnessing agent or officer was involved. “No” means the DEA-6 or other
documentation showed that only one agent or officer was involved. “Could not determine”
means the DEA-6 or other documentation did not provide sufficient information to confirm
whether a witnessing agent or officer was involved. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 5 percentage points of what they would have been if the entire
population had been tested.


                                               18
the cash. Moreover, a failure to document the presence of a witness, if one
was present, violated DEA policies.

Counting Seized Cash

       Another critical control requires that the seizing and witnessing agents
or officers count the cash upon seizure if the amount of seized currency is
such that an immediate count is “practical.” The DEA Agents Manual does
not define when it is “practical” to count the cash. The manual does state
that if the amount of cash is too large for an immediate count, the agents
should secure the cash pending an official count. However, the manual does
not define what amount is “too large” to count.

       For the 742 cash seizures tested, we reviewed the DEA-6 and other
documentation from the DEA case files to determine if the agents followed
this control. We found that DEA agents counted the cash upon seizure for
only 16 percent of the seizures we tested. A summary of our test results for
this control is shown in the following chart.

                                 Counting Seized Cash37


     Agents Counted
                           16%       15%                        69%
      Seized Cash

                                            Yes    Could not determine   No

      Source: OIG analysis of DEA records


      The detailed results for each office and Division we tested are
presented in Appendix IV. The results showed a wide disparity in the
implementation of this control among the 28 DEA offices we tested. The
rate at which the control was implemented ranged from 63 percent in the




       37
          For the test of whether agents counted the seized cash, “Yes” means the DEA-6
or other documentation showed that agents counted the cash. “No” means the DEA-6 or
other documentation showed that agents did not count the cash. “Could not determine”
means the DEA-6 or other documentation did not provide sufficient information to confirm
whether the agents counted the cash. Based on our statistically valid projected point
estimates, the percentages reported in this analysis of the sampled items are within plus or
minus 5 percentage points of what they would have been if the entire population had been
tested.


                                                  19
Los Angeles Division Office to 0 percent in 11 offices.38 Moreover, we found
that implementation of the control was not consistent within some Division
offices. For example, within the Washington Division 33 percent of the cash
seizures we tested in the Washington Division Office were counted, while
none of the seizures we tested in the Richmond, Virginia, District Office were
counted. Likewise, in the Los Angeles Division, 63 percent of the cash
seizures tested in the Los Angeles Division Office were counted, while none
of the seizures tested in the Ventura Resident Office were counted.

      While DEA’s written policy in the DEA Agents Manual is to count seized
cash when practical, DEA officials in 9 of the 28 offices we tested
erroneously told us they believed it was the DEA’s policy that agents should
not count the seized cash. The officials told us they do not count the cash to
avoid discrepancies between the agents’ counts and the official bank counts,
which could lead to additional paperwork and could subject the agents to an
investigation. However, our analysis of cash seizures counted by both the
agents and the banks found such differences to be rare. For the 79 seizures
we tested that were counted by both the agents and the banks, differences
between the counts occurred in 6 seizures. Of the six differences, the
amounts involved were immaterial ($40 or less) in two instances. The
remaining four differences are discussed below.

       •    The bank’s count was $100 less than the agent’s count and was
            explained by the bank finding a counterfeit $100 bill in the seized
            cash. The bank excluded the counterfeit bill from its count while
            the agent did not.

       •    The bank’s count of $15,500 was $1,005 more than the agent’s
            count of $14,495. DEA officials could not explain the difference.
            However, since the bank’s count was higher than the agent’s count,
            no actions were necessary to resolve the difference.

       •    The bank’s count of $4,885 was $235 more than the agent’s count
            of $4,650. DEA officials could not explain the difference. However,
            since the bank’s count was higher than the agent’s count, no
            actions were necessary to resolve the difference.




       38
           The offices were the: Division Offices in Detroit, Michigan; Miami, Florida; John F.
Kennedy Airport Office in New York; District Offices in Richmond, Virginia; and Riverside,
California; and Resident Offices in Ventura, California; Austin, Texas; Dayton, Ohio;
Cleveland, Ohio; West Palm Beach, Florida; and Syracuse, New York.


                                              20
     •   The bank’s count was $2,500 less than the agent’s count. The
         agent counted $18,000 and the bank counted $15,500. DEA
         officials could not explain the difference and the DEA had not taken
         any action to investigate the difference.

      We also believe that it is misguided for DEA agents to not count cash
to avoid possible complaints about discrepancies in cash counts by the bank.
We examined 11 DEA Office of Professional Responsibility (OPR) reports
from August 2003 to February 2005, and 4 OIG Investigation reports from
October 2004 through April 2006, related to the theft or loss of cash, and
noted that agents have become the subject of investigations when they did
not count the seized currency.

      In one OPR case, a complainant alleged that DEA agents interviewed
him at the airport, seized $9,000 in cash, and gave him a receipt for an
undetermined amount of money. Even though the agents detained the
complainant in the controlled environment of an airport for a significant
amount of time, the agents did not count the cash. DEA records prepared
subsequent to the seizure indicated the agents seized $1,895 in cash from
the complainant. The OPR report gave no indication why the agents did not
follow DEA policy and count the cash. The OPR report concluded that no
evidence existed to show the agents seized more than $1,895 from the
complainant and therefore no action was taken against the agents.

      In another OPR case, a complainant alleged that DEA agents seized
approximately $5,000 in cash and gave her a receipt for an unknown
amount of cash. The subsequent bank count was $2,661. The cash was
seized during the execution of a search warrant at the complainant’s
residence. Again, the agents did not count the cash. The documentation
provided with the investigative report showed that the agent who discovered
the cash stated that per DEA policy, he did not count the cash at the scene.
The documentation also noted that the cash was not taken to the bank until
3 days later and there was no indication the cash was counted at any point
during the 3 days between seizure and delivery to the bank. As in the
previous example, the OPR report concluded that no evidence existed to
show the agents seized more than $2,661 from the complainant and
therefore no action was taken against the agents.

      In an OIG Investigations case, a complainant alleged that DEA agents
seized $50,000. The subsequent bank count was $35,000. The cash was
seized at the complainant’s residence and the agents did not count the cash.
The agents also did not photograph the cash or maintain a copy of the
DEA-12 receipt that agents said was provided to the owner of the seized
cash.

                                     21
      Because DEA officials in at least nine offices told us they believe that
agents should not count cash when seized, we surveyed other Department
components about their polices for counting seized currency. Officials from
the United States Marshals Service and the Federal Bureau of Prisons stated
that they do not have a policy for counting seized cash. Officials from the
Federal Bureau of Investigation (FBI) and the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) provided their policies as follows.

      FBI Policy: Seized currency must be counted and the
      count verified by two officials. To verify the accuracy of the
      original count, counting should be conducted at least twice.
      It is suggested that seized currency be counted and verified
      at the scene. When circumstances such as officer safety,
      volume of currency, or available resources make on-site
      count and verification unfeasible, it is permissible to secure
      the currency and count and verify it at another location.
      The seizing agent is strongly encouraged to use a money
      counting machine when counting and verifying seized
      currency.

      ATF Policy: The special agent will, in the presence of a
      witnessing agent, conduct an accurate account of all money
      or financial instruments. If, in the opinion of the special
      agent, with the authorization of the immediate supervisor, it
      is determined that the monetary instruments are of such
      amounts that an accurate count is impractical, the special
      agent along with the witnessing agent shall place the funds
      in sealed evidence bags, initial the bags, and transport the
      money to a financial institution for counting.

      The importance of counting money has also been emphasized by the
International Association of Chiefs of Police (IACP). An IACP policy paper
stated that no matter how extensive the precautions taken to safeguard
items entering a law enforcement agency’s property system, extra measures
should always be effected in accepting and controlling money taken into
agency custody. The IACP stated that alleged missing money, whether the
personal property of an arrestee or the fruits of crime, is one of the major
sources of complaints against police personnel. The IACP recommended that
substantial amounts of money should be counted and verified by a
supervisor.

       We also examined the 11 DEA Office of Inspections’ reports covering
11 DEA Divisions, as discussed on pages 5 and 6 of this report, to determine
if the inspections included a review of the Divisions’ compliance with the

                                      22
cash counting control. We found that none of the 11 inspection reports
discussed compliance with the cash counting requirement. Given the
inconsistent implementation of this critical control, we recommend that all
future Division inspections examine compliance with this control.

Providing a Receipt to the Owner of Seized Cash

       According to the DEA Agents Manual, DEA agents are required to issue
a DEA-12, Receipt for Property or Other Items, to the person from whom the
cash was seized showing either the amount seized or that “an undetermined
amount of U.S. currency pending an official count” was seized. The owner or
person claiming ownership should be asked to sign the receipt. If the
individual refuses to sign the receipt, this fact should be noted on the
DEA-12 and the DEA-6, Report of Investigation. If no one claims ownership
of the cash, this fact should also to be noted on the DEA-12 and DEA-6.
When cash is seized as the result of a warrant, agents are not required to
issue a DEA-12. Instead, the agents are required to leave a copy of the
warrant on the premises showing either the amount of cash seized or that
an undetermined amount of cash was seized.

      For the 742 cash seizures tested, we reviewed the DEA-6, DEA-12, and
other documentation from the DEA case files to determine if the DEA
followed this control. The documentation we reviewed did not indicate that
the DEA agents regularly issued a receipt or warrant to the owner of the
seized cash or did not maintain documentation to confirm they did so in 48
percent of the seizures tested. A summary of our test results for this control
is shown in the following chart.




                                     23
                       Agents Provided a Receipt or Warrant
                         to the Owner of the Seized Cash39



             Agents Provided                          1%
               a Receipt or               52%                   47%
                 Warrant

                                       Yes    Could not determine   No

            Source: OIG analysis of DEA records

      The detailed results for each office and Division we tested are shown in
Appendix V. Among the 28 DEA offices we tested, the compliance rate
ranged from 100 percent in the Montgomery, Alabama, District Office; New
York’s John F. Kennedy Airport Office; and Brownsville, Texas, Resident
Office to 0 percent in the McAllen, Texas, District Office and Cleveland, Ohio,
and Ventura, California, Resident Offices.

      DEA officials told us that based on their extensive prior experience in
managing investigations they believed a DEA-12 or warrant was usually
provided to the owner of the seized cash, but that the agents did not
document that action. However, without such documentation we cannot
determine whether a DEA-12 or warrant was provided to the owner.
Moreover, failing to issue a DEA-12 or copy of the warrant and maintain this
required documentation violated DEA policies.

Presence of a Witnessing Agent or Officer When Handling Seized Cash

      The DEA’s controls require that a witnessing agent or officer be
present when the cash is sealed in a Heat Sealed Evidence Envelope or other
suitable container, transported to the local DEA office, and transported to
the bank. For the 742 cash seizures tested, we reviewed the DEA-6 and
other documentation from the DEA case files to determine if the DEA
followed this control. Overall, our review found that the DEA did not

       39
           “Yes” means the DEA-12, DEA-6, or other documentation showed that agents
provided a receipt or warrant to the owner of the cash. “No” means the DEA-12, DEA-6, or
other documentation showed that agents did not provide a receipt or warrant to the owner
of the cash. “Could not determine” means the DEA-6 did not contain sufficient information
to confirm whether the agents provided a receipt or warrant to the owner of the cash, and
the DEA provided no other documentation to show a receipt or warrant was provided to the
owner. Based on our statistically valid projected point estimates, the percentages reported
in this analysis of the sampled items are within plus or minus 2 percentage points of what
they would have been if the entire population had been tested.




                                              24
maintain documentation indicating that a witnessing agent or officer was
present at the various stages of the cash handling process. A summary of
our test results for this control is shown in the following chart.

                    Presence of a Witnessing Agent or Officer
                at Various Stages of the Cash Handling Process40

                                                                                     4%
       Witness Present
                               21%                          75%
       During Sealing
       Witness Present
       During Transport          30%                      49%                  21%
          to the DEA
       Witness Present
       During Transport                    63%                          26%       11%
         to the Bank
                                           Yes    Could not determine    No

   Source: OIG analysis of DEA records

     The detailed results for each office and Division we tested are shown in
Appendix VI. Among the 28 DEA offices we tested, we found that:

       •    the compliance rate for having a witness present during sealing of
            the cash ranged from 89 percent in the John F. Kennedy Airport
            Office to 0 percent in 11 offices;41

       •    the compliance rate for having a witness present during transport
            to the DEA ranged from 79 percent in the Los Angeles Division
            Office to 0 percent in 5 offices;42 and


       40
           “Yes” means the DEA-6 or other documentation showed that a witnessing agent
or officer was involved. “No” means the DEA-6 or other documentation showed that only
one agent or officer was involved. “Could not determine” means the DEA-6 or other
documentation did not provide sufficient information to confirm whether a witnessing agent
or officer was involved. Based on our statistically valid projected point estimates, the
percentages reported in this analysis of the sampled items are within plus or minus:
(1) 6 percentage points of what they would have been if the entire population had been
tested for the test of a witness present during sealing of the cash, (2) 6 percentage points
for the test of a witness present during transport of the cash to the local DEA office, and
(3) 2 percentage points for the test of a witness present during transport of the cash to the
bank.
       41
          The offices were the: Division Office in Houston, Texas; District Offices in Fort
Lauderdale, Florida; Baltimore, Maryland; and Richmond, Virginia; and Resident Offices in
Birmingham, Alabama; Oxford, Mississippi; Ventura, California; Austin, Texas; Brownsville,
Texas; Cleveland, Ohio; and Norfolk, Virginia.


                                             25
       •    the compliance rate for having a witness present during transport
            to the bank ranged from 100 percent in the Miami, Florida, Division
            Office; Long Island, New York, District Office; West Palm Beach,
            Florida, Resident Office; and the John F. Kennedy Airport Office to 6
            percent in the Cleveland, Ohio, Resident Office.

       DEA officials told us that they believed, based on their extensive prior
experience, that witnesses were usually present when the cash was sealed in
the evidence envelope and that the evidence envelope contained the
signature of the witnessing agent. However, the DEA discarded the evidence
envelopes after the cash was counted by the bank and usually did not
document in the case records that a witness was present during sealing of
the cash in the evidence envelope. The DEA officials also told us that they
believed witnesses were usually present when the cash was transferred to
the local DEA office and to the bank but that the agents did not document
that a witness was present. However, without such documentation we
cannot confirm whether a witness was actually present during sealing of the
cash in the evidence envelopes or during transport of the cash to the DEA
office and bank.

Recording Cash Seizures in the High-Value Seized and Recovered Monies
Ledger

      Beginning January 1, 2005, the DEA required that all high-value seized
items, including cash, cashier’s checks, and recovered Official Advanced
Funds, valued at $1,000 or more be recorded in a High-Value Seized and
Recovered Monies (HVSRM) ledger. The HVSRM ledger should be used to
record the receipt, transfer, and disposition of the high-value items. For the
742 cash seizures tested, we reviewed the HVSRM ledgers maintained by the
evidence custodians to determine if the DEA implemented this control.
Overall, we found that more than 80 percent of the cash seizures we tested
that were valued at $1,000 or more were not recorded in the HVSRM ledger.
A summary of our test results for this control is shown in the following chart.




       42
          The offices were the District Office in Tampa, Florida; and the Resident Offices in
Oxford, Mississippi; Austin, Texas; Brownsville, Texas; and Cleveland, Ohio.


                                             26
                  Recording Seized Cash in the HVSRM Ledger43


              Seized Cash
             Recorded in the      19%                    81%
             HVSRM Ledger

                                                  Yes    No

        Source: OIG analysis of DEA records

       The detailed results for each office and Division we tested are shown in
Appendix VII. Among the 28 DEA offices we tested, the compliance rate
ranged from 100 percent in 2 offices (John F. Kennedy Airport Office in New
York and the Oxford, Mississippi, Resident Office) to 0 percent in 21
offices.44

      We found that cash seizures typically were not recorded in the HVSRM
ledgers because many DEA offices were not using the ledgers as required by
DEA policy. For the 28 DEA offices tested, we found that only 6 (21 percent)
used the HVSRM ledger to record all types of high-value seized and
recovered items. The remaining 22 DEA offices either used the HVSRM
ledger to record some types of high-value items but not others, or did not
use the HVSRM ledger at all. The chart below summarizes our analysis of
how the 28 DEA offices we tested used the HVSRM ledgers.




       43
          “Yes” means documentation showed that the cash seizure tested was recorded on
the HVSRM ledger. “No” means documentation showed that the cash seizure tested was not
recorded on the HVSRM ledger. Based on our statistically valid projected point estimates,
the percentages reported in this analysis of the sampled items are within plus or minus 5
percentage points of what they would have been if the entire population had been tested.
       44
           The offices were the Division Offices in Washington, D.C.; Detroit, Michigan;
Houston, Texas; and Miami, Florida; the District Offices in Baltimore, Maryland; Richmond,
Virginia; Columbus, Ohio; McAllen, Texas; Riverside, California; Fort Lauderdale, Florida;
Orlando, Florida; Tampa, Florida; Birmingham, Alabama; and Long Island, New York; and
the Resident Offices in Norfolk, Virginia; Cleveland, Ohio; Dayton, Ohio; Brownsville, Texas;
Austin, Texas; Ventura, California; and Syracuse, New York.


                                             27
                        DEA Offices’ Use of the HVSRM Ledger

                    1 Office
                                                       Seized cash, cashier’s checks,
                      4%         6 Offices
        3 Offices                                      and recovered Official Advanced
          11%                      21%                 Funds (OAF)
  6 Offices                                             Cashier’s checks only
    21%                                                Recovered OAF and evidence only

                                                       Cashier’s checks and evidence only

                                                       Used two ledgers (seized cash only
                                                       and evidence only)
                                       5 Offices
                                         18%           Used two ledgers (evidence only
                                                       and cashier’s checks only)
       2 Offices
         7%                5 Offices                   Did not use a ledger
                             18%
 Source: OIG analysis of DEA records and interviews with DEA staff

       We attribute the disparity in how the different DEA offices used the
HVSRM ledgers to the evidence custodians not having attended current
training, as discussed on pages 33 and 34 of the report. Not recording cash
in the ledgers can cloud the chain-of-custody of seized cash because we
found numerous instances where other chain-of-custody forms were not
completed making it difficult or impossible to identify who had custody of the
cash. Improper use of the ledgers also increases the risk that seized cash
could be lost or stolen without detection.

Timeliness of Transporting Seized Cash to the Bank for an Official Count and
Conversion to a Cashier’s Check

      The DEA established an internal control to safeguard seized cash by
minimizing the time the cash is in the DEA’s possession. The control
requires that agents transfer seized cash to the bank for an official count
and conversion to a cashier’s check as soon as arrangements can be made
with the bank.45

     For the 742 cash seizures tested, we reviewed documentation from the
DEA case files and interviewed the DEA officials to determine if the DEA

       45
            This control became effective on April 5, 2005. Prior to this date, the DEA’s policy
required that for unknown amounts, agents were to transport cash to the bank for an
official count and conversion to a cashier’s check on the next business day following the
seizure. If the exact amount was known, the agents were to transport the cash to the bank
within 5 working days.


                                              28
followed this control. The documentation we reviewed showed that the DEA
transported seized cash to the bank in an average time of 3.2 working days
after seizure. Three of the seven Divisions we tested had average times at
or below the average and the other four divisions had average times ranging
from 3.3 to 4.7 working days as shown in the following chart. The detailed
results for each office we tested are shown in Appendix VIII.

                Average Number of Working Days from Seizure
                to Transport of Cash to the Bank (By Division)

         DEA Division
        New Orleans                  1.4

              Detroit                  1.6

             Houston                       1.8
        Average for
       all 7 Divisions                                   3.2

         Los Angeles                                      3.3

         Washington                                            3.5

               Miami                                                 4.5

           New York                                                        4.7


               Average time for the Division        Average for all divisions tested

      Source: OIG analysis of DEA records

       We found that some offices took seized cash to the bank much more
quickly than others. As shown in Appendix VIII, for the 28 DEA offices
tested the average working days from when the cash was seized to when it
was taken to the bank ranged from 0.5 days (Austin, Texas) to 7.4 days
(West Palm Beach, Florida). The wide divergence resulted because some
offices required agents to take the cash to the bank daily, while other offices
required weekly trips to the bank. Other offices did not have set schedules
for taking cash to the bank but instead made impromptu bank trips when
agents were available.

      The risk of mishandling all seized cash and particularly cash that is not
counted prior to transportation to the bank increases the longer the cash is
held. We believe that the DEA should review the cash handling processes in
the timeliest Divisions – Houston, New Orleans, and Detroit – to determine if
those processes can be used in other offices to reduce the time that cash is
on hand.

                                               29
Timeliness of Transferring Seized Cash to the USMS

      To minimize the time cash is held, the DEA requires that seizures
subject to forfeiture and not retained as evidence be transferred to the
custody of the USMS within 15 working days of seizure.

       For the 742 cash seizures tested, we reviewed case file records
showing the date cash was seized and the Form DEA-48a (Disposition of
Non-drug Evidence) or other documentation showing the date cash was
transferred to the USMS to determine if the DEA followed this control. With
the exception of the Detroit Division, the DEA Divisions generally transferred
seized cash to the USMS in a timely manner. Overall, the average time from
seizure to transfer of the seized cash to the USMS was 10.6 working days.
Four of the seven divisions had average times of 5.6 to 10.2 working days
and the other three divisions had average times ranging from 10.9 to 15.6
working days as shown in the following chart. The detailed results for each
office we tested are shown in Appendix IX.

                       Average Number of Working Days from
                       Seizure to Transfer of Cash to the USMS

       DEA Division
         New York                             5.6

      Los Angeles                                           9.6

           Houston                                          9.6

       Washington                                             10.2
      Average for
     all 7 Divisions                                              10.6

      New Orleans                                                 10.9

             Miami                                                       13.3

            Detroit                                                                15.6


               Division average was within 15       Division average exceeded 15
               working day limit                    working day limit
               Average for all divisions tested

    Source: OIG analysis of DEA records

       While the overall averages for 6 of the 7 divisions tested were within
the 15 working day limit established by the DEA, we found that 10 of the 28
individual DEA offices tested exceeded the limit for the cash seizures we
                                              30
tested. As shown in the chart at Appendix IX, for the sample seizures the
average time from seizure to transfer of the cash to the USMS for these 10
offices ranged from 15.2 to 28.8 working days. Some offices, such as the
Long Island, New York, office had banks wire the funds directly to the USMS
instead of obtaining a cashier’s check from the bank and then delivering the
check to the USMS. None of the 10 offices that exceeded the 15-day limit
used the wire transfer process. The DEA Agents Manual encourages
Divisions to collaborate with the USMS to arrange for wire transfers in cities
where this procedure is not already in place. We believe the use of wire
transfers could significantly reduce the amount of time that seized funds
remain in the possession of the DEA and reduce the risk of loss.

Maintaining Chain-of-Custody Records

       The DEA Agents Manual specifies that all due care must be exercised
to create an unimpeachable record of the chain of custody and processing of
high-value items. Thus, DEA agents and officials are required to use a DEA-
12, signed by the transferring agent and witnessed by another law
enforcement person, to document the transfer of any high-value item. The
DEA established this requirement to avoid any discrepancies, accusations of
theft, or misappropriation of the seized item.

      In some cases, the manual allows the transfer of cash using the DEA-
12 or another acceptable form, such as the DEA-7a, or Standard Seizure
Form (SSF).46 When cash is seized and taken to the local DEA office during
regular duty hours, the agent is to release custody of the seized cash to the
evidence custodian using a DEA-12, DEA-7a, or SSF. After regular duty
hours, the agent is required to place the cash in temporary overnight
storage using a DEA-12 or DEA-7a and make an entry in the temporary
overnight ledger.47 Copies of the DEA-12, DEA-7a, and SSF documenting
the delivery of the cash are to be put in the case files and preserved as part
of the chain-of-custody records.

       For the 742 cash seizures tested, we reviewed documentation from the
DEA case files and interviewed DEA officials to determine if the DEA followed
this control. The documentation we reviewed showed that agents in many of

       46
          The SSF is a 5-page form that includes case and asset information, names and
addresses of potential claimants, and other details such as probable cause and chain-of-
custody information.
       47
           According to the DEA Agents Manual, temporary storage refers to a safe, locker,
or other secure place. Many DEA offices have bank style night-drops or similar facilities for
overnight temporary storage of high-value items such as cash. Agents are not permitted to
store seized currency in locked desks, unoccupied vehicles, or hotel rooms.


                                             31
the DEA offices generally did not use a DEA-12, DEA-7a, or SSF to document
the transfer of seized cash when placing the seized cash into temporary
overnight storage or when transferring the cash directly to an evidence
custodian. A summary of our test results for this control is shown in the
following chart.

                      Transfer of Cash to the Evidence Custodian
                      Using the Proper Chain-of-Custody Form48



             Agents Transferred
                 Cash Using          26%                     74%
                Proper Form

                                                     Yes    No

            Source: OIG analysis of DEA records

      The detailed results for each office and Division we tested are shown in
Appendix X. Among the 28 DEA offices tested, the compliance rate ranged
from 100 percent in the Syracuse, New York, Resident Office to 0 percent in
16 offices.49

      The evidence custodians and other DEA officials in the offices we
tested told us that making an entry in the HVSRM ledger was sufficient to
document the transfer of the currency to an evidence custodian. However,
we found 275 instances where the transfer of cash to the evidence custodian
was not documented on the proper chain-of-custody form and the cash was
not recorded in the HVSRM ledger.

      Failure to maintain the proper chain-of-custody records unnecessarily
increases the risk that seized cash can be misappropriated. We identified
119 cash seizures where the risk of misappropriation was exceptionally high
       48
           “Yes” means documentation showed that the agents transferred the seized cash
to the evidence custodian using a DEA-12 or other appropriate form. “No” means
documentation showed that the agents transferred the seized cash to the evidence
custodian without using a DEA-12 or other appropriate form. Based on our statistically valid
projected point estimates, the percentages reported in this analysis of the sampled items
are within plus or minus 3 percentage points of what they would have been if the entire
population had been tested.
       49
           The offices were the Division Offices in Washington, D.C.; Los Angeles, California;
and Miami, Florida; the District Offices in Baltimore, Maryland; Richmond, Virginia;
Birmingham, Alabama; Montgomery, Alabama; Long Island, New York; and Orlando,
Florida; and the Resident Offices in Norfolk, Virginia; Cleveland, Ohio; Oxford, Mississippi;
Ventura, California; Austin, Texas; and Brownsville, Texas; and the John F. Kennedy Airport
Office in New York.

                                              32
because: (1) the agents did not count or did not document that they
counted the seized cash upon discovery; (2) the agents did not take the
seized cash directly to the bank for an immediate count; (3) the agents did
not document the transfer of the cash to the evidence custodian using a
DEA-12 or other appropriate chain-of-custody form; and (4) the seized cash
was not recorded in the HVSRM ledger. As shown in the following chart, the
location of these 119 cash seizures totaling about $4.7 million was not
documented for from 1 to 35 days.

             Seizures with Significant Risk of Loss or Theft

                               Number            Dollar         Days
                                  of            Value of     Unaccounted
               Division        Seizures         Seizures         For
           Washington                 11           $73,083     1 to 17
           New Orleans                12          $732,793     1 to 4
           Miami                      59        $1,707,373     1 to 35
           Houston                    11          $198,984     1 to 2
           Detroit                    19          $563,978     1 to 3
           Los Angeles                 7        $1,382,512     1 to 4
           Totals                   119 $4,658,723             1 to 35
          Source: OIG analysis of DEA records

      DEA officials at some offices (Tampa, Orlando, and Baltimore) told us
that supervisors have safes in their offices where they secure currency
pending an official count. However, we found no evidence that these
supervisors recorded cash seizures on a ledger and obtained a DEA-12 or
other chain-of-custody form to document receipt of seized cash from the
agents.

Training and Website Guidance

       As discussed in the Prior Audits, Inspections, and Reviews section of
this report, the DEA responded to prior report recommendations by:
(1) developing a classroom training program for agents and evidence
custodians that included training on handling seized cash; and
(2) adding a Frequently Asked Questions segment that focuses on the
handling of evidence including seized and recovered monies to the DEA’s
electronic library. We reviewed the content of the new training program and
the Frequently Asked Questions segment and found that both appeared to
cover the problem areas that we found during this audit.

     To determine if the evidence custodians were using the training and
website to improve their knowledge of handling seized cash, we interviewed
                                           33
the evidence custodians at the seven Divisions we tested. We found that
only 16 of the 72 evidence custodians interviewed had attended the updated
training. Other custodians stated that they did not know about the training
or when the classes were held. However, 61 of 72 evidence custodians were
familiar with the Frequently Asked Questions document available on the
DEA’s electronic library. We recommend that DEA ensure that all agents and
evidence custodians that handle seized cash receive the new training, which
should improve their handling of seized cash.

Documentation Errors and Supervisory Oversight

       Throughout our audit, DEA managers in Headquarters and in individual
offices told us that problems we identified resulted from documentation
errors alone, and that DEA staff routinely follow cash-handling controls. We
acknowledge that this explanation may provide a partial explanation for
some of the deficiencies we identified. However, unless the DEA creates and
maintains documentation regarding the handling of seized cash, a
requirement of current DEA policy, neither we nor the DEA can be certain
that cash is handled appropriately and according to the DEA’s policies.
Moreover, in many cases we know that the seized cash was not handled in
accord with DEA policies by our review of the documents that existed and by
our interviews of DEA agents who acknowledged that they did not follow
certain DEA policies.

       Moreover, several DEA supervisors acknowledged to us that
agents were not following DEA cash seizure policies and that they were
not enforcing such polices. A lack of supervisory oversight appeared
to be a direct cause of the problems that we identified in the New York
Division. At the conclusion of our work in that Division an Assistant
Special Agent in Charge (ASAC) reviewed our results and generally
concurred with our findings. The ASAC immediately issued an e-mail
directive to the office’s Group Supervisors requiring improved
documentation of cash handling. The ASAC’s e-mail provided detailed
reminders of the documentation requirements with which the Group
Supervisors were to ensure compliance.

       This action by the ASAC constituted prompt and appropriate corrective
action to address problems related to documentation failures. Given the
deficiencies we identified across the DEA, and to the extent that our
deficiencies derive from documentation failures, similar strengthening of
supervisory oversight is necessary in many DEA offices. We believe that
increased supervisory oversight should take the form of more frequent
reminders to staff of the documentation requirements and better supervisory


                                     34
review, including review during periodic inspections, of documentation to
ensure compliance with requirements.

Conclusion

       Our audit found that while the DEA had established internal control
policies for safeguarding seized cash, some of those policies should be
strengthened. For example, the DEA needs to better define what is meant
by “practical” in its guidance for counting cash that states if the amount of
currency is such that an immediate count is “practical,” a count is to be
conducted by the seizing agent and witnessing agent or officer.
Furthermore, the timeframe for seized cash to be taken to the bank needs to
be redefined to ensure that DEA offices minimize the time they have custody
of all seized cash and particularly uncounted seized cash. In addition, the
transfer of seized cash to the USMS needs to be speeded by mandating the
use of wire transfers where possible.

      Moreover, our testing found that the DEA did not adequately follow
many of its controls regarding cash seizures. For most seizures we tested,
documentation did not show that a witnessing agent or task force officer was
present at critical stages of the cash handling process, as required by the
DEA Manual. Further, we found that agents and task force officers generally
did not follow DEA requirements on when to count the seized currency; did
not provide a receipt to the subject from whom the currency was taken; did
not complete documents transferring custody of the currency to an evidence
custodian; and did not record the receipt, transfer, or disposal of the
currency in a temporary or permanent control ledger.

      The failures to enforce effective controls for safeguarding seized cash
can lead to discrepancies, accusations of theft, or misappropriation of seized
cash. We identified 12 instances where either the DEA’s OPR or the OIG’s
Investigations Division investigated allegations of stolen or missing seized
cash and the investigations showed that DEA personnel did not follow
established controls for safeguarding the seized cash, including not counting
the seized cash, not providing a DEA-12 receipt to the suspect, and
transporting the seized cash without a witness present.

      While the DEA claims, without support or documentation, that its
agents follow DEA policies regarding handling of cash seizures, our audit
indicated otherwise. The DEA should not rely on its hope, without
documentation, that its internal controls are followed. Rather, the DEA
should more rigorously enforce its internal controls, which require
documentation that employees comply with its cash seizure policies.


                                      35
RECOMMENDATIONS

    We recommend that the DEA:

 1. Clarify the policy on counting seized cash and clearly define the
    circumstances under which it is and is not required to count cash at
    the time of seizure.

 2. Research best practices associated with timely transport of seized cash
    to banks, including those in several DEA offices that timely transfer
    cash to banks, and implement those practices as widely as possible.

 3. Ensure that seized cash is wire-transferred to the USMS whenever
    possible.

 4. Issue to all staff involved in cash seizure activities periodic reminders
    of the internal controls to be followed and documented, including:

    •   documenting that another officer or agent witnessed the seizure of
        the cash, sealing of the cash in an evidence bag or container,
        transport of the cash to the DEA office, and transport of the cash to
        the bank;

    •   documenting the rationale for not counting cash;

    •   documenting the receipt provided to the suspect from whom cash
        was seized;

    •   recording cash seized in the HVSRM ledger; and

    •   documenting the transfer of cash to the evidence custodian on a
        DEA-12 or other appropriate form;

 5. Instruct DEA staff who supervise cash handling activities to monitor
    documentation such as the Report of Investigation (DEA-6) and other
    cash handling forms completed by agents to ensure the forms are
    sufficiently detailed to show cash handling controls are followed. In
    addition, instruct the supervisors to ensure that the required forms are
    maintained in the case files.

 6. Identify all evidence custodians who have not attended the DEA’s
    comprehensive classroom training course that includes training on
    cash handling controls. Ensure these custodians receive the
    appropriate training.

                                     36
7. After the DEA clarifies its policy on counting cash and implements best
   practices for timely transferring cash to banks, ensure that inspection
   procedures are revised to include steps to measure DEA’s
   implementation of the controls established for counting cash and for
   transporting seized cash to the bank in a timely manner.




                                  37
                STATEMENT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS


      The Federal Managers Financial Integrity Act of 1982 requires agencies
to establish and maintain internal control. The Office of Management and
Budget Circular No. A-123, Management’s Responsibility for Internal Control,
defines management’s responsibilities related to internal control. The DEA’s
controls for handling of seized cash are established by applicable sections of
the DEA Agents Manual. To obtain reasonable assurance that the DEA
complied with laws and regulations that, if not complied with, could have a
material effect on the DEA’s handling of seized cash, we tested the DEA’s
compliance with DEA guidelines for handling seized cash contained in the
following sections of the DEA Agents Manual.

      •   Section 6682, Currency and High-Value Items

      •   Section 6654, Asset Forfeiture

      •   Section 6681, Non-drug Property

      Except for instances of noncompliance identified in the Finding and
Recommendations section of this report, we did not identify any other
instances of noncompliance with the guidelines contained in the DEA Agents
Manual sections cited above.




                                      38
                    ABBREVIATIONS

 Abbreviation                    Description
AFF             Asset Forfeiture Fund
AFP             Asset Forfeiture Program
ASAC            Assistant Special Agent in Charge
ATF             Bureau of Alcohol, Tobacco, Firearms, and
                Explosives
CATS            Consolidated Asset Tracking System
DEA             Drug Enforcement Administration
DEA-6           Report of Investigation
DEA-7a          Acquisition of Non-drug Property
DEA-12          Receipt for Cash or Other Items
Department      Department of Justice
FBI             Federal Bureau of Investigation
FY              Fiscal Year
GAO             Government Accountability Office
HSEE            Heat Sealed Evidence Envelope
HVSRM           High-Value and Seized/Recovered Monies
IACP            International Association of Chiefs of Police
OAF             Official Advanced Funds
OIG             Department of Justice, Office of the
                Inspector General
OPR             DEA Office of Professional Responsibility
SADF            Seized Asset Deposit Fund
SSF             Standard Seizure Form
USMS            United States Marshals Service




                             39
                                                               APPENDIX I

               Objective, Scope, and Methodology

Objective

      The objective of the audit was to determine whether the DEA complied
with appropriate requirements governing the handling of cash from seizure
through distribution.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States, and
included tests and procedures necessary to accomplish the objective. We
performed fieldwork at the following locations.

     DEA Headquarters                    Arlington, Virginia

     Washington Division

     Washington Division Office          Washington, D.C.
     Baltimore District Office           Baltimore, Maryland
     Richmond District Office            Richmond, Virginia
     Norfolk Resident Office             Norfolk, Virginia

     Los Angeles Division

     Los Angeles Division Office         Los Angeles, California
     Riverside District Office           Riverside, California
     Ventura Resident Office             Ventura, California
     Los Angeles Airport Group Office    Los Angeles, California

     New York Division

     New York Division Office            New York, New York
     Long Island District Office         New York, New York
     New York Task Force Office          New York, New York
     New York John F. Kennedy
      Airport Office                     New York, New York
     Syracuse Resident Office            Syracuse, New York




                                    40
      Houston Division

      Houston Division Office              Houston, Texas
      McAllen District Office              McAllen, Texas
      Austin Resident Office               Austin, Texas
      Brownsville Resident Office          Brownsville, Texas

      New Orleans Division

      Montgomery District Office           Montgomery, Alabama
      Birmingham Resident Office           Birmingham, Alabama
      Oxford Resident Office               Oxford, Mississippi

      Miami Division

      Miami Division Office                Miami, Florida
      Ft. Lauderdale District Office       Ft. Lauderdale, Florida
      Orlando District Office              Orlando, Florida
      Tampa District Office                Tampa, Florida
      West Palm Beach Resident Office      West Palm Beach, Florida

      Detroit Division

      Detroit Division Office              Detroit, Michigan
      Columbus District Office             Columbus, Ohio
      Cleveland Resident Office            Cleveland, Ohio
      Dayton Resident Office               Dayton, Ohio

       As a result of prior external and internal audits, inspections, reviews,
and investigations, the DEA revised and updated its controls for
safeguarding seized cash during FY 2005. The new controls became
effective on April 5, 2005. To determine whether the DEA complied with
appropriate requirements governing the handling of cash from seizure
through distribution, we initially identified and evaluated the controls
established by the DEA to safeguard seized cash. We tested a preliminary
statistical sample of 239 cash seizures totaling $4,314,740 from the
Washington Division’s universe of 1,304 cash seizures totaling $21,119,512
from October 1, 2003, through September 30, 2005. The 239 cash seizures
tested were handled by four Washington Division offices (Washington
Division Office, Baltimore District Office, Richmond District Office, and
Norfolk Resident Office). Our sample included: (1) seizures made by the
DEA as well as seizures made by state and local agencies and subsequently
adopted by the DEA for processing under federal laws, and (2) seizures
made before and after the new controls were established.

                                      41
      For each of the seizures sampled, we interviewed DEA officials and
reviewed documentation from case files to determine the following.

       •    Were two agents present when the cash was discovered?

       •    Did the agents or officers count the cash?

       •    Did the agents issue a receipt to the person claiming ownership of
            the currency or, if the cash was seized under a warrant, did the
            agents leave a copy of the warrant on the premises?

       •    Did the agents’ cash count agree with the bank’s count and if not,
            were the discrepancies adequately researched and explained (only
            applies if agents counted the cash)?

       •    Were two agents present when the cash was sealed in an evidence
            container, transported to the local DEA office, and transported to
            the bank?

       •    Did the agents or officers complete the proper chain-of-custody
            documents when transferring custody of the cash to the evidence
            custodian (only applies if cash was taken to the local DEA office
            during regular duty hours)?

       •    Did the agents or officers complete the proper chain-of-custody
            documents when placing seized cash in a secure overnight storage
            location (only applies if cash was taken to the local DEA office after
            regular duty hours)?50

       •    Were the chain-of-custody documents signed and witnessed by two
            law enforcement officers?

       •    Did the evidence custodians record the receipt and disposition of
            cash and cashier’s checks in the HVSRM Ledger?

       •    Did the agents or officers transport the cash to the bank for an
            official count in a timely manner?



       50
         To complete this test we compared the date of seizure to the date the currency
was converted to a cashier’s check. If those dates were different, we concluded agents
should have placed the currency in secure storage along with the appropriate transferring
documentation and made a entry in an overnight ledger.


                                            42
      •   Did the DEA transfer custody of seized cash to the USMS within 15
          working days of seizure?

      Based on our preliminary audit testing that showed controls for
safeguarding seized cash were not always followed, we performed additional
testing to include other DEA offices. The scope of our audit work was limited
because we excluded many cash seizures from our testing based on requests
from the DEA or based on the results of our preliminary testing as follows.

      •   Based on our preliminary audit testing, we determined the DEA
          implemented revised cash handling procedures effective April 5,
          2005. We sought to test controls for cash seized both prior to and
          after April 5, 2005. However, the DEA denied us access to records
          for cases where cash was seized prior to April 5, 2005, and the case
          was still open at the time of our planned tests. For this reason, we
          excluded from further testing cash seizures made prior to April 5,
          2005.

      •   At the request of the DEA, we excluded 2,109 cash seizures totaling
          $85,670,364 from the Atlanta Division offices because of an
          ongoing investigation in that Division regarding the alleged
          misappropriation of seized cash by a DEA agent.

      •   At the request of DEA officials, we excluded from our testing cash
          seizures in some New Orleans Division offices because of the effects
          of hurricane Katrina on the DEA’s operations in that area.

      •   Based on our preliminary audit testing that determined that DEA
          agents generally did not handle the seized cash when the DEA
          adopted seizures made by state and local law enforcement
          agencies, we excluded adopted seizures from further testing.

       After the preliminary audit testing, we selected an additional 503 cash
seizures totaling $40,665,978 at 24 additional DEA locations within 6
additional DEA Divisions. Including the preliminary sample reviewed for the
Washington Division, our total sample consisted of 742 cash seizures totaling
$44,980,718 at 28 DEA locations within 7 DEA Divisions from the sample
universe of 3,705 seizures valued at $160,680,618. Further details of our
statistical sample design are presented in Appendix II. The number and
dollar value of seizures we tested at each DEA office and Division are shown
in the following table.




                                      43
                 Number and Dollar Value of Cash Seizures Tested
                                                      Number of   Dollar Value of
                        Division/Office                Seizures      Seizures
             New York Division
               New York Division Office                      30          $975,235
               New York Task Force Office                    30        $7,740,242
               Long Island District Office                   21          $631,870
               Syracuse Resident Office                      15        $1,285,106
                John F. Kennedy Airport Office                9          $619,646
               Total                                        105      $11,252,099
             Houston Division
                Houston Division Office                      30        $1,214,181
                McAllen District Office                      25        $9,240,962
                Brownsville Resident Office                   6           $37,843
                Austin Resident Office                        4           $66,119
                Total                                        65      $10,559,105
             Detroit Division
                Detroit Division Office                      30        $2,693,179
                Columbus District Office                     29        $3,437,611
                Cleveland Resident Office                    24          $331,043
                Dayton Resident Office                        6          $109,495
                Total                                        89       $6,571,328
             Los Angeles Division
                Los Angeles Division Office51                50        $3,657,064
                Riverside District Office                    30        $2,082,283
                Ventura Resident Office                       7          $248,576
                Total                                        87       $5,987,923

             Washington Division52
               Washington Division Office                   117          $798,716
               Baltimore District Office                     89        $1,855,260
               Richmond District Office                      23        $1,447,647
               Norfolk Resident Office                       10          $213,117
               Total                                        239       $4,314,740
             New Orleans Division
               Birmingham Resident Office                    30        $2,035,693
               Montgomery District Office                    29        $1,043,643
               Oxford Resident Office                         9          $314,194
               Total                                         68       $3,393,530
             Miami Division
                Miami Division Office                        32        $1,315,102
                Orlando District Office                      24          $548,041
                Tampa District Office                        16          $673,088
                West Palm Beach Resident Office               9          $222,832
                Ft. Lauderdale District Office                8          $142,930
                Total                                        89       $2,901,993
             Grand Total                                    742      $44,980,718
            Source: Statistical sample taken from CATS

       51
          The 50 seizures tested for the Los Angeles Division Office included 20 seizures for
the Los Angeles Airport Group Office.
       52
         The number of cash seizures tested in the Washington Division included both
adopted seizures and DEA seizures. As previously noted, after our preliminary testing in the
Washington Division, we excluded adopted seizures from our expanded testing. Thus, we
tested more seizures in the Washington Division than in the other DEA Divisions.

                                                 44
                                                             APPENDIX II

                      Statistical Sample Design

       The universe of items for sample selection consisted of 2,609
non-adopted cash seizures between April 5, 2005, and November 3, 2005,
by 152 DEA offices located in 20 DEA Field Divisions (excludes the Atlanta
Field Division) throughout the country. A multistage clustered statistical
sample was designed to provide effective and efficient coverage of the
dispersed universe of sample items. The sample consisted of seven primary
units (Field Divisions) from 20 with probability proportional to size at a
sample fraction of 35 percent; 29 out of 152 secondary units (DEA offices) in
the universe at a sample fraction of 19 percent; and 547 out of 2,609
tertiary units (cash seizures) within the seven primary units and 29
secondary units. The random sample of tertiary units yielded a sample
fraction 21 percent of the universe. The details of the sample test and the
testing process is presented in the body of the audit report.

Sample Test Results

      The results of eight attribute tests were considered for computation of
the point estimate projections. For each of the attribute tests, four types of
test outcomes (characteristics) were considered: (1) test did not pass (NO),
(2) the test result could not be determined (CND), (3) test passed (YES),
and (4) the sampled item was not applicable to the objective of the test
(NA). The estimated projections and percentages for each of these four test
outcomes were computed.

     To arrive at these results, the mathematical model notations, and
formulae used to compute unbiased estimates of total values and the
percentages is as follows.

N     The number of primary units in the universe.

n     The number of primary units sampled.

Mi    The number of secondary units in the ith sampled primary unit.

mi    The number of secondary units sampled from the ith primary unit Mi.

Rij   The number of tertiary units in the jth sampled secondary unit from the
      ith sampled primary unit.



                                     45
rij     The number of tertiary units (test items) sampled from the jth sampled
        secondary unit within ith sampled primary unit Rij.

yijk    Random variable and its value corresponding to kth sampled tertiary
        unit from the jth secondary unit sampled from the ith primary unit.


            1 If kth sampled item selected from the jth secondary unit selected
              from the ith primary unit found to have the characteristic.
yijk
            0 Otherwise

Thus     y ijk ∈ { 0 ,1}

 Yˆ             Estimate of the total number of items in the population with the
                characteristic.

 Yˆi            Estimate of the total number of items in the ith primary unit with
                the characteristic.

 Yˆij           Estimate of the total number of items in the jth secondary unit
                selected from the ith primary unit with the characteristic.

 πi             The probability of including the ith primary unit in the sample.
                                 rij
                        R
                  Yˆij = ij
                         rij
                                 ∑y
                                 k =1
                                          ijk


                                                              ν
                                          rij
                                                                Yˆi
                                                           Y =∑
                           mi
                      M           Rij
                 Yˆi = i
                      mi
                           ∑ r ∑y
                           j=1
                                                ijk
                                                            ˆ
                                                              i =1   πi
                                       ij k=1




      The percentage of each characteristic was computed after subtracting
the number of non-applicable items from the total as denominator.




                                                      46
                                                                             Appendix III

                         Presence of a Witnessing Agent
                      or Officer when Cash was Discovered53

                                      Washington Division

         Washington Division Office          22%        11%                67%

            Baltimore District Office          30%                        70%

            Richmond District Office              43%               14%          43%

                Norfolk Resident Office                   63%                       37%

                                                    Yes       Could not determine      No

Source: OIG analysis of DEA records



                                           Detroit Division
                                                                                       4%
                 Detroit Division Office                        85%                      11%
                                                                                5%
            Columbus District Office                      73%                          22%

           Cleveland Resident Office          25%             25%               50%

                Dayton Resident Office          33%                        67%


                                                    Yes       Could not determine      No

Source: OIG analysis of DEA records




           53
             “Yes” means documentation showed that a witnessing agent or officer was
   involved. “No” means documentation showed that only one witnessing agent or officer was
   involved. “Could not determine” means the documentation did not provide sufficient
   information to confirm whether a witnessing agent or officer was involved.


                                                   47
                         Presence of a Witnessing Agent
                      or Officer when Cash was Discovered

                                       Houston Division

             Houston Division Office                56%                 22%        22%

               McAllen District Office                          100%

        Brownsville Resident Office                       75%                      25%

              Austin Resident Office                            100%

                                               Yes        Could not determine      No

Source: OIG analysis of DEA records



                                      Los Angeles Division

         Los Angeles Division Office                      73%                6%    21%

             Riverside District Office          45%                   25%         30%

            Ventura Resident Office                  60%                    20%        20%

                                               Yes        Could not determine      No

Source: OIG analysis of DEA records



                                         Miami Division
                                                                                         4%
                Miami Division Office                           96%

      Ft. Lauderdale District Office                  67%                         33%

              Orlando District Office               55%                     30%        15%

               Tampa District Office                      80%                     10%10%

 West Palm Beach Resident Office                                100%

                                              Yes     Could not determine         No

Source: OIG analysis of DEA records


                                               48
                        Presence of a Witnessing Agent
                    or Officer when Cash was Discovered

                                      New Orleans Division

         Birmingham District Office            47%                       53%

         Montgomery District Office                 46%            27%          27%

              Oxford Resident Office                        89%                       11%

                                               Yes        Could not determine    No

Source: OIG analysis of DEA records




                                       New York Division
                                                                                        3%
           New York Division Office                         85%                      12%

         Long Island District Office                        88%                  6%6%
                                                                                    3%
        New York Task Force Office                     78%                      19%

    John F. Kennedy Airport Office                            100%

           Syracuse Resident Office                         91%                       9%

                                              Yes     Could not determine       No

Source: OIG analysis of DEA records




                                               49
                                                                        Appendix IV

                            Counting Seized Cash
                            (By Division/Office)54

                                  Washington Division

        Washington Division Office           33%         17%               50%

            Baltimore District Office    14%                     86%

            Richmond District Office                        100%

             Norfolk Resident Office             50%                       50%


                                                 Yes   Could not determine       No

Source: OIG analysis of DEA records



                                        Detroit Division

              Detroit Division Office                       100%

            Columbus District Office 11%                         89%

           Cleveland Resident Office                        100%

             Dayton Resident Office                         100%


                                                           Yes     No

Source: OIG analysis of DEA records




      54
          As for the counting of seized cash, “Yes” means documentation showed the seized
cash was counted, “No” means documentation showed the seized cash was not counted,
and “Could not determine” means the documentation did not provide sufficient information
to confirm whether the seized cash was counted.


                                            50
                            Counting Seized Cash
                             (By Division/Office)

                                      Houston Division

           Houston Division Office            34%            22%              44%

             McAllen District Office          34%              33%                33%

       Brownsville Resident Office          25%                       75%

             Austin Resident Office                           100%

                                              Yes       Could not determine       No

Source: OIG analysis of DEA records


                                  Los Angeles Division
                                                                      3%
        Los Angeles Division Office                    63%                    34%
                                    4%
           Riverside District Office                            96%

           Ventura Resident Office                            100%

                                                 Yes    Could not determine       No

Source: OIG analysis of DEA records


                                        Miami Division

              Miami Division Office               50%                       50%

      Ft. Lauderdale District Office    15%      14%                  71%
                                       5%
            Orlando District Office                          78%                       17%
                                       6%
              Tampa District Office                          81%                       13%

 West Palm Beach Resident Office            33%                        67%

                                                 Yes    Could not determine       No

Source: OIG analysis of DEA records

                                            51
                            Counting Seized Cash
                             (By Division/Office)

                                 New Orleans Division

        Birmingham District Office        31%         10%            59%

        Montgomery District Office        31%          19%              50%

            Oxford Resident Office       22%     11%                67%

                                                Yes    Could not determine    No

Source: OIG analysis of DEA records


                                      New York Division

          New York Division Office 7%                         93%

        Long Island District Office 12% 12%                      76%

       New York Task Force Office 7%                         93%

    John F. Kennedy Airport Office                          100%

          Syracuse Resident Office 7%                         93%

                                                Yes   Could not determine    No

Source: OIG analysis of DEA records




                                           52
                                                                                    Appendix V

                      Agents Provided a Receipt or Warrant
                        to the Owner of the Seized Cash55

                                      Washington Division

         Washington Division Office                     58%                         42%

            Baltimore District Office                  52%                          48%

            Richmond District Office              40%                         60%

                Norfolk Resident Office        30%                            70%


                                                               Yes       No

Source: OIG analysis of DEA records



                                           Detroit Division

                 Detroit Division Office                     74%                       26%

            Columbus District Office                               92%                     8%

           Cleveland Resident Office                           100%

                Dayton Resident Office                       80%                          20%

                                                               Yes       No

Source: OIG analysis of DEA records




           55
             “Yes” means documentation showed the agents provided the owner of the seized
   cash either a receipt (DEA-12) or a copy of the seizure warrant if applicable. “No” means
   documentation showed the agents did not provide the owner of the seized cash either a
   receipt (DEA-12) or a copy of the seizure warrant if applicable. “Could not determine”
   means the documentation did not provide sufficient information to confirm whether the
   agents provided the owner of the seized cash either a receipt (DEA-12) or a copy of the
   seizure warrant if applicable.


                                                  53
                     Agents Provided a Receipt or Warrant
                       to the Owner of the Seized Cash

                                       Houston Division

             Houston Division Office            44%                         56%

               McAllen District Office 7%                           93%

        Brownsville Resident Office                             100%

              Austin Resident Office                  67%                         33%

                                                Yes        Could not determine     No

Source: OIG analysis of DEA records



                                      Los Angeles Division
                                                                                        6%
         Los Angeles Division Office                           94%

             Riverside District Office               53%                     47%

            Ventura Resident Office                            100%

                                                              Yes     No

Source: OIG analysis of DEA records



                                         Miami Division

                Miami Division Office          36%                         64%

      Ft. Lauderdale District Office     14%                    86%

              Orlando District Office          38%                          62%

               Tampa District Office      22%                         78%

 West Palm Beach Resident Office               38%                          62%

                                                               Yes     No

Source: OIG analysis of DEA records


                                                54
                     Agents Provided a Receipt or Warrant
                       to the Owner of the Seized Cash

                                      New Orleans Division

         Birmingham District Office                           87%                  13%

         Montgomery District Office                           100%

              Oxford Resident Office                       78%                  11% 11%

                                               Yes        Could not determine    No

Source: OIG analysis of DEA records




                                       New York Division

           New York Division Office 8%                           92%

         Long Island District Office           44%                        56%

        New York Task Force Office 8%                            92%

    John F. Kennedy Airport Office                             100%

           Syracuse Resident Office                 58%                     42%


                                                              Yes    No

Source: OIG analysis of DEA records




                                               55
                                                                           Appendix VI

               Presence of a Witnessing Agent or Officer
           at Various Stages of the Cash Handling Process56

                        Washington Division Offices Tested
 Washington
                     During Sealing     17%                        83%
Division Office
       During Transport to the DEA 8%                     67%                     25%

     During Transport to the Bank 8%                        75%                     17%
  Baltimore
                     During Sealing                          100%
District Office

      During Transport to the DEA          29%                  45%               26%

     During Transport to the Bank                          87%                      13%
  Richmond
District Office      During Sealing                        89%                       11%

      During Transport to the DEA        23%              33%                44%

     During Transport to the Bank              47%                27%            26%
   Norfolk
Resident Office      During Sealing                          100%

      During Transport to the DEA 10%                     60%                   30%

     During Transport to the Bank          30%                  40%              30%

                                                    Yes    Could not determine      No

Source: OIG analysis of DEA records




          56
              “Yes” means documentation showed the name of the witnessing agent or officer
   who was present or involved. “No” means documentation showed the name of only one
   agent or officer who was present or involved. “Could not determine” means the
   documentation did not provide sufficient information to confirm whether a witnessing agent
   or officer was present or involved.


                                               56
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process

                          Detroit Division Offices Tested
                                                                                4%
    Detroit
Division Office    During Sealing     25%                    71%

     During Transport to the DEA        40%                      46%          14%
                                                                                3%
    During Transport to the Bank        36%                      61%
  Columbus
District Office    During Sealing 12%                      80%                  8%

    During Transport to the DEA        27%                       73%

    During Transport to the Bank              52%                      48%
  Cleveland
Resident Office    During Sealing                         100%

     During Transport to the DEA                    79%                       21%
                                6%
    During Transport to the Bank                    68%                   26%
    Dayton
Resident Office    During Sealing     20%           40%                 40%

    During Transport to the DEA       20%           40%                 40%

    During Transport to the Bank                  67%              17%        16%

                                        Yes       Could not determine    No

Source: OIG analysis of DEA records




                                             57
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process

                             Houston Division Offices Tested

   Houston
                   During Sealing                       100%
Division Office

     During Transport to the DEA      25%               50%                25%

   During Transport to the Bank         45%               22%           33%

   McAllen
                   During Sealing 13%                      87%
District Office

    During Transport to the DEA             50%                33%          17%

   During Transport to the Bank              54%                     38%        8%

 Brownsville
                   During Sealing                       100%
Resident Office

     During Transport to the DEA                  67%                   33%

   During Transport to the Bank       25%                50%               25%

    Austin
                   During Sealing                       100%
Resident Office

    During Transport to the DEA                         100%

   During Transport to the Bank             50%                25%         25%

                                        Yes       Could not determine      No

Source: OIG analysis of DEA records




                                            58
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process

                        Los Angeles Division Offices Tested
                                                                               3%
 Los Angeles
Division Office    During Sealing             59%                     38%
                                                                               6%
     During Transport to the DEA                    79%                  15%

   During Transport to the Bank                   64%            7%      29%

  Riverside
                   During Sealing     21%                 67%                 12%
District Office

    During Transport to the DEA         37%                36%           27%

   During Transport to the Bank              52%                   40%         8%

   Ventura
                   During Sealing                       100%
Resident Office

     During Transport to the DEA                    75%                  25%

   During Transport to the Bank               60%                20%        20%

                                            Yes    Could not determine   No

Source: OIG analysis of DEA records




                                             59
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process

                           Miami Division Offices Tested

    Miami
                    During Sealing    14%                  86%
Division Office

      During Transport to the DEA      25%                   68%                  7%

     During Transport to the Bank                        100%

 Ft. Lauderdale
                    During Sealing                       100%
 District Office

      During Transport to the DEA           38%                 50%              12%

     During Transport to the Bank       38%                     50%              12%
                                  5%
   Orlando
                    During Sealing                        95%
District Office

      During Transport to the DEA      27%                      73%

     During Transport to the Bank      23%                 64%                   13%
   Tampa
                    During Sealing    20%                 60%                20%
District Office

     During Transport to the DEA                   77%                      23%

     During Transport to the Bank           44%                  44%             12%

West Palm Beach During Sealing              38%                    62%
 Resident Office

      During Transport to the DEA                 63%                 25%        12%

     During Transport to the Bank                        100%

                                            Yes    Could not determine      No

Source: OIG analysis of DEA records




                                             60
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process


                       New Orleans Division Offices Tested

 Birmingham                                                                     4%
Resident Office    During Sealing                       96%

     During Transport to the DEA 11%                 61%                  28%

   During Transport to the Bank              54%               21%        25%

Montgomery
                   During Sealing     23%                      77%
District Office
                                                                                6%
    During Transport to the DEA        31%                     63%

   During Transport to the Bank                   65%                27%        8%

    Oxford
                   During Sealing                       100%
Resident Office

     During Transport to the DEA              63%                        37%

   During Transport to the Bank                          89%                   11%

                                        Yes        Could not determine    No

Source: OIG analysis of DEA records




                                             61
               Presence of a Witnessing Agent or Officer
            at Various Stages of the Cash Handling Process

                         New York Division Offices Tested

  New York
                    During Sealing          33%                  57%              10%
Division Office

      During Transport to the DEA      25%                    54%             21%

     During Transport to the Bank                        93%                       7%

  Long Island
                    During Sealing    24%                        76%
 District Office

      During Transport to the DEA     18%                  64%                18%

     During Transport to the Bank                        100%

   New York
                  During Sealing       28%                    52%             20%
Task Force Office

      During Transport to the DEA      22%           32%               46%
                                                                                  3%3%
     During Transport to the Bank                       94%
John F. Kennedy
                    During Sealing                      89%                       11%
 Airport Office

     During Transport to the DEA              56%                      44%

     During Transport to the Bank                          100%

  Syracuse          During Sealing                      87%                       13%
Resident Office

      During Transport to the DEA 13%             40%                  47%

     During Transport to the Bank                        87%                      13%

                                            Yes     Could not determine      No

Source: OIG analysis of DEA records




                                             62
                                                                   Appendix VII

                Recording Seized Cash in the HVSRM Ledger

                                      Washington Division

         Washington Division Office                         100%

            Baltimore District Office                       100%

            Richmond District Office                        100%

              Norfolk Resident Office                       100%

                                                             No

Source: OIG analysis of DEA records



                                         Detroit Division

               Detroit Division Office                      100%

            Columbus District Office                        100%

           Cleveland Resident Office                        100%

              Dayton Resident Office                        100%

                                                             No

Source: OIG analysis of DEA records



                                       Houston Division

             Houston Division Office                        100%

               McAllen District Office                      100%

        Brownsville Resident Office                         100%

              Austin Resident Office                        100%


                                                              No

Source: OIG analysis of DEA records


                                                63
                Recording Seized Cash in the HVSRM Ledger

                                      Los Angeles Division

         Los Angeles Division Office 12%                      88%

             Riverside District Office                       100%

            Ventura Resident Office                          100%

                                                             Yes    No

Source: OIG analysis of DEA records


                                          Miami Division

                Miami Division Office                        100%

      Ft. Lauderdale District Office                         100%

              Orlando District Office                        100%

               Tampa District Office                         100%

 West Palm Beach Resident Office                50%                      50%


                                                           Yes      No

Source: OIG analysis of DEA records



                                      New Orleans Division

         Birmingham District Office                          100%

         Montgomery District Office 11%                        89%

              Oxford Resident Office                         100%

                                                             Yes    No

Source: OIG analysis of DEA records




                                               64
                Recording Seized Cash in the HVSRM Ledger

                                      New York Division
                                                                      7%
           New York Division Office                   93%

         Long Island District Office                       100%

        New York Task Force Office                    86%            14%

    John F. Kennedy Airport Office                         100%

           Syracuse Resident Office                        100%

                                                          Yes   No

Source: OIG analysis of DEA records




                                             65
                                                                         Appendix VIII

       Average Number of Working Days from Seizure
        to Transport of Cash to the Bank (By Office)
                 DEA Office
                 Austin, TX           0.5   0.8
                                                                  Average time
                                            0.9
                                            0.9                   was less than
               Syracuse, NY
                                                                  average of all
              Columbus, OH                   11.1                 offices
                                                                tested.
           Montgomery, AL                     1.1
                                               1.2
                                                                      Average time
            Birmingham, AL                        1.3
                                                  1.2                 for all offices
                                                  1.4                 tested.
            Brownsville, TX                       1.3

                Dayton, OH                        1.4
                                                  1.4                 Average time
                                                                      was more
              Cleveland, OH                       1.5
                                                  1.4                 than average
                                                                      of all offices
                Houston, TX                        1.5
                                                   1.4                tested.

               Riverside, CA                       1.6
                                                     1.8

                McAllen, TX                             2 2.2

                 Detroit, MI                            2.2
                                                         2.2

              Richmond, VA                               2.5
                                                         2.5

            Long Island, NY                               2.6
                                                           2.7

                 Oxford, MS                               2.7
                                                           2.7

                Orlando, FL                               2.8
                                                           2.9

                 Tampa, FL                                 33.2

  Average for all 28 offices                                3.3
                                                            3.2

             Baltimore, MD                                 3.3
                                                            3.4

                Ventura, CA                                  4.1
                                                            3.4
           Washington, DC                                       4.2
                                                                3.8
            Los Angeles, CA                                     4.3
                                                                 4.3

      New York Task Force                                         55.1

          Ft. Lauderdale, FL                                     5.3
                                                                 5.1

                Norfolk, VA                                        6.2
                                                                  5.2

                   Miami, FL                                       6.4
                                                                   5.5
              New York, NY                                             7.2
                                                                        6.7

  John F. Kennedy Airport                                              7.3
                                                                        7.2

      West Palm Beach, FL                                                8.6
                                                                         7.4

Source: OIG analysis of DEA records
                                      66
                                                                          Appendix IX

         Average Number of Working Days from Seizure
           to Transfer of Cash to the USMS (By Office)
                  DEA Office
           Long Island, NY            2.7
                                                               Average time
                                            4.8                met criteria.
             Baltimore, MD
      New York Task Force                    5.5                Average time
                                                                for all offices
                  Miami, FL                  5.5
                                                                tested.
                 Austin, TX                   6
                                                                Average time
              Syracuse, NY                        6.1           exceeded
                                                                criteria.
              New York, NY                        6.6

    John F Kennedy Airport                          7.2

                McAllen, TX                             7.7

              Riverside, CA                             8.6

           Birmingham, AL                               8.7

                Orlando, FL                               9.7
           Los Angeles, CA                                    9.9
 Average for all 28 offices                                   10.6

           Montgomery, AL                                       11.7

                Ventura, CA                                     12.0

               Houston, TX                                          13

             Columbus, OH                                            13.8

             Cleveland, OH                                           14.4

                Norfolk, VA                                           15.2

             Richmond, VA                                             15.2

                Oxford, MS                                            15.2

            Brownsville, TX                                              17.3

                Detroit, MI                                              17.4

         Ft. Lauderdale, FL                                              17.9

                Dayton, OH                                                18.7

           Washington, DC                                                    19.9

                 Tampa, FL                                                      21.5

      West Palm Beach, FL                                                           28.8


Source: OIG analysis of DEA records


                                      67
                                                                           Appendix X

          Transferring Seized Cash to the Evidence Custodian
               Using the Proper Chain-of-Custody Form

                                      Washington Division

         Washington Division Office                         100%

            Baltimore District Office                       100%

            Richmond District Office                        100%

              Norfolk Resident Office                       100%

                                                              No

Source: OIG analysis of DEA records


                                         Detroit Division

               Detroit Division Office           44%                      56%

            Columbus District Office             40%                     60%

           Cleveland Resident Office                        100%

              Dayton Resident Office       20%                     80%

                                                            Yes    No

Source: OIG analysis of DEA records


                                       Houston Division

             Houston Division Office                   75%                      25%

               McAllen District Office       30%                    70%

        Brownsville Resident Office                          100%

              Austin Resident Office                         100%

                                                            Yes     No

Source: OIG analysis of DEA records

                                                 68
          Transferring Seized Cash to the Evidence Custodian
               Using the Proper Chain-of-Custody Form

                                      Los Angeles Division

         Los Angeles Division Office                         100%
                                         5%
             Riverside District Office                        95%

            Ventura Resident Office                          100%

                                                           Yes    No

Source: OIG analysis of DEA records


                                          Miami Division

                Miami Division Office                        100%

      Ft. Lauderdale District Office            50%                        50%

              Orlando District Office                      100%
                                        6%
               Tampa District Office                          94%

 West Palm Beach Resident Office                    63%                     37%


                                                           Yes        No

Source: OIG analysis of DEA records


                                      New Orleans Division

         Birmingham District Office                          100%

         Montgomery District Office                          100%

              Oxford Resident Office                         100%

                                                                 No

Source: OIG analysis of DEA records




                                               69
          Transferring Seized Cash to the Evidence Custodian
               Using the Proper Chain-of-Custody Form

                                      New York Division
                                                                           3%
           New York Division Office                       97%

         Long Island District Office                       100%

        New York Task Force Office                70%                30%

    John F. Kennedy Airport Office                         100%

           Syracuse Resident Office                        100%

                                                          Yes   No

Source: OIG analysis of DEA records




                                             70
                                    Appendix XI

DEA’s Response to the Draft Audit Report




                   71
72
73
                                                             Appendix XII

     Office of the Inspector General, Audit Division, Analysis
     and Summary of Actions Necessary to Close the Report

      We provided the draft report to the DEA for comment. The DEA’s
response, included in this report as Appendix XI, agrees with six of our
seven recommendations and proposes corrective action sufficient to resolve
the six recommendations. The DEA disagrees with our last recommendation
and therefore the recommendation is unresolved. Our analysis of the DEA’s
response to the recommendations is provided below.

1.    Resolved. We recommended the DEA clarify its policy on counting
      seized cash and clearly define the circumstances under which cash
      should be counted. The DEA agreed and stated that it is in the pilot
      phase of implementing procedures to use a self-sealing evidence
      envelope designed to self-authenticate the chain of custody of seized
      currency and ensure the currency is secured prior to an official count.
      The DEA stated that once the pilot program is completed, it will change
      its operational policy to state that DEA personnel will not count seized
      currency before placing it in the self-sealing evidence envelope, unless
      the DEA seizes currency in conjunction with state and local law
      enforcement agencies and these agencies are required by local policy to
      conduct an immediate count of the currency. The DEA further stated
      that if an unofficial count of the currency is conducted by DEA
      personnel, the count will be noted in a DEA-6, Report of Investigation.
      The recommendation can be closed when we receive documentation
      showing the DEA has developed and issued the stated policy.

2.    Resolved. We recommended the DEA research best practices
      associated with timely transport of seized cash to banks and implement
      those practices as widely as possible. The DEA agreed and stated that it
      will develop operational policy requiring that arrangements be made to
      transport seized cash to the bank within 2 working days of seizure,
      unless the seizing office has established a protocol such as regularly
      scheduled appointments with a financial institution to count seized cash.
      The recommendation can be closed when we receive documentation
      showing the DEA has developed and issued the stated policy.

3.    Resolved. We recommended the DEA ensure that seized cash is wire-
      transferred to the USMS whenever possible. The DEA agreed and stated
      that it is in the pilot phase of implementing new procedures requiring
      that all United States currency seizures be wire-transferred to the

                                       74
     USMS’s Seized Assets Deposit Fund. The DEA stated that once the
     program is approved, policy will be established to formalize this
     requirement. The recommendation can be closed when we receive
     documentation showing the DEA has developed and issued the stated
     policy.

4.   Resolved. We recommended the DEA issue to all staff involved in cash
     seizure activities periodic reminders of the internal controls to be
     followed and documented. The DEA agreed and stated that its Office of
     Inspections recently conducted an inspection of the DEA’s seized and
     recovered monies program and found similar issues consistent with this
     recommendation. The DEA stated that it plans to issue reminders of the
     internal control procedures to be followed to the High Value Seized and
     Recovered Monies Program participants and that appropriate
     instructions will be incorporated into multiple training courses, seminars,
     and programs. The recommendation can be closed when we receive
     documentation showing the DEA has issued the reminders stated and
     incorporated similar instructions in the training courses, seminars, and
     programs stated in its response.

5.   Resolved. We recommended the DEA instruct DEA staff who supervise
     cash handling activities to monitor documentation completed by agents
     to ensure the forms are sufficiently detailed to show cash handling
     controls are followed. We also recommended the DEA instruct
     supervisors to ensure that the required forms are maintained in the case
     files. The DEA agreed and stated that it recently revised
     subchapter 6654 of the Agents Manual to require that a detailed
     description of the surrounding circumstances be included in the custody
     of evidence sections of all reports. The DEA stated that it will also
     incorporate this instruction in the Group Supervisor Institute curriculum.
     The DEA’s planned actions will address this recommendation in the long-
     term. However, until supervisors receive the revised Group Supervisor
     Institute curriculum training, interim instructions should be issued to the
     supervisors to ensure that the required forms are sufficiently detailed
     and maintained in the case files. The recommendation can be closed
     when we receive documentation showing the DEA has incorporated the
     stated instructions in the Group Supervisor Institute curriculum and
     issued interim instructions to supervisors to ensure that the required
     forms are sufficiently detailed and maintained in the case files.

6.   Resolved. We recommended the DEA identify all evidence custodians
     who have not attended the DEA’s comprehensive classroom training
     course and ensure the custodians receive the appropriate training. The
     DEA agreed and stated it has revised Section 6681 of the Agents Manual

                                      75
     to require that all evidence custodians attend formal training provided
     by the Office of Training. The DEA stated the revised policy should be
     approved and published within 30 days. The recommendation can be
     closed when we receive documentation showing the DEA has issued the
     stated policy.

7.   Unresolved. We recommended the DEA ensure that inspection
     procedures are revised to include steps to measure DEA’s
     implementation of the controls established for counting cash and for
     transporting seized cash to the bank in a timely manner. The DEA
     disagreed and stated that it is already in compliance with this
     recommendation. The DEA stated that its Office of Inspections already
     conducts comprehensive reviews of the Seized Monies program and
     utilizes an inspection checklist that reflects current DEA policies and
     procedures at the time of the reviews. The DEA stated that as policy
     changes occur, the checklists are updated to reflect the changes and
     used to measure overall program compliance.

     We disagree that the DEA is already in compliance with this
     recommendation. Our audit work showed that all the DEA offices we
     visited, except the Los Angeles Airport Group Office, had significant non-
     compliance with the DEA’s cash counting policy. In addition, many of
     the offices we visited took much longer to transfer seized cash to the
     bank than other offices. However, none of the 11 DEA Office of
     Inspections’ reports provided us by the DEA, including reports on 4 of
     the DEA divisions that we visited, disclosed any problems with DEA
     offices following the cash counting policy or transporting seized cash to
     the bank untimely. If the DEA was in compliance with this
     recommendation, it should have identified the deficiencies we identified
     and made recommendations to correct the deficiencies. This
     recommendation can be closed when we receive documentation showing
     that the DEA has ensured that its inspection procedures include steps to
     measure the DEA’s implementation of the controls established for
     counting cash and for transporting seized cash to the bank in a timely
     manner.




                                      76
